'■<.r

\

-y

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 20-2540
Tillman T. Henderson
Appellant
v.
Scott Frakes and Michelle Capps
Appellees

Appeal from U.S. District Court for the District of Nebraska - Lincoln
(4:19-cv-03022-RGK)
ORDER
The petition for rehearing en banc is denied. The petition for rehearing by the panel is
also denied.
January 13, 2021

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

-

*»-

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 20-2540

Tillman T. Henderson
Petitioner - Appellant
v.
Scott Frakes; Michelle Capps
Respondents - Appellees
Appeal from U.S. District Court for the District of Nebraska - Lincoln
(4:19-cv-03022-RGK)
JUDGMENT

Before BENTON, WOLLMAN, and GRASZ, Circuit Judges.

Application for Certificate of Appealability is denied.
Appellant's motion to compel is denied.
Appellant's motion for appointment of counsel is denied as moot.
December 02, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

Case: 4:19-cv-03022-RGK-PRSE
■V

Document #: 43-1
of 2

Date Filed: 07/27/2020

Page 1

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEBRASKA
TILLMAN T. HENDERSON,
4:19CV3022

Petitioner,
vs.

MEMORANDUM AND ORDER
SCOTT FRAKES,
CAPPS,

and

MICHELLE

Respondents.

This matter is before the court on Petitioner’s Motion for Rehearing (filing
35), which the court liberally construes as a Rule 59(e) motion to alter or amend1
the court’s Memorandum and Order (filing 33) and Judgment (filing 34)
dismissing Petitioner’s Petition for Writ of Habeas Corpus with prejudice.
Petitioner asks for reconsideration of his habeas petition “on the merits” and for
“valid reasons stated in the attached supporting brief.” (Filing 35.) However,
Petitioner did not file a brief with his motion but rather filed a motion seeking an a
45-day extension to submit a brief in support of his motion. (Filing 36.)
Rule 59(e) motions serve the limited function of correcting manifest errors
of law or fact or to present newly discovered evidence. United States v. Metro. St.
Louis Sewer Dist., 440 F.3d 930, 933 (8th Cir. 2006). Such motions cannot be used
to introduce new evidence, tender new legal theories, or raise arguments which
could have been offered or raised prior to entry of judgment. Id.
The court carefully considered Petitioner’s claims and arguments in its 63page Memorandum and Order denying and dismissing Petitioner’s habeas petition
1 A Rule 59(e) motion “must be filed no later than 28 days after the entry of
judgment.” Fed.R.Civ.P. 59(e). Petitioner’s motion was timely filed on July 20, 2020.

Case: 4:19-cv-03022-RGK-PRSE
*

■ • Si

Document#: 43-1
of 2

Date Filed: 07/27/2020

Page 2

with prejudice. Whatever the reasons for reconsideration Petitioner may assert in a
future brief, the court sees no reason to reconsider the denial of Petitioner’s habeas
petition and will, therefore, deny Petitioner’s motions.
IT IS THEREFORE ORDERED that: Petitioner’s Motion for Rehearing
(filing 35), construed as a motion to alter or amend the judgment under Rule 59(e),
and Motion for Extension of Time (filing 36) are denied.
Dated this 27th day of July, 2020.
BY THE COURT:
•*

Richard G. Kopt
Senior United States District Judge

2

Case: 4:19-cv-03022-RGK-PRSE

Document#: 33-1

Date Filed: 07/06/2020

Page 1 of 63

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEBRASKA
TILLMAN T. HENDERSON,
Petitioner,

4:19CV3022

vs.

SCOTT FRAKES,
CAPPS,

and

MICHELLE

MEMORANDUM
AND ORDER

Respondents.

This matter is before the court on Petitioner Tillman T. Henderson’s
(“Petitioner” or “Henderson”) Petition for Writ of Habeas Corpus, (Filing No. 1.)
For the reasons that follow, Petitioner’s habeas petition is denied and dismissed with
prejudice.
I. CLAIMS
Summarized and condensed,1 and as set forth in the court’s prior progression
order (filing no. 10), Petitioner asserted the following claims that were potentially
cognizable in this court:
Claim One:

i

Petitioner was denied effective assistance of counsel
because trial counsel (1) failed to raise and argue
Petitioner’s actual innocence (filing no. 1 at CM/ECF p.
19); (2) failed to move to compel DNA and GSR testing
(id. at CM/ECF pp. 19-20, 47-49); (3) failed to interview

Petitioner did not object to the court’s summary and condensation.
1

Case: 4:19-cv-03022-RGK-PRSE

Document #: 33-1

Date Filed: 07/06/2020

Page 2 of 63

or call witnesses Joeanna Ball, Deonta2 Marion, and
Timothy Washington to testify (id. at CM/ECF pp. 2023); (4) failed to request an instruction on a co-conspirator
rule and its application to hearsay exceptions (id. at
CM/ECF p. 44); (5) failed to object to Ramone Navarez’s
testimony based on irrelevance until after his testimony
was complete (id. at CM/ECF pp. 52-53); (6) failed to
impeach Officer Sarka’s testimony, to introduce audio and
video evidence from Sarka’s cruiser to the jury, and to
move to strike the portion of Sarka’s testimony
“identifying the defendant as the shooter from what
someone else told him” (id. at CM/ECF pp. 56-57).
Claim Two:

Petitioner was denied effective assistance. of counsel
because trial and appellate counsel (1) failed to argue State
v. Tompkins which is based off U.S. v. Hahn against the
State raising the good faith exception for the first time on
appeal (id. at CM/ECF pp. 24-25); (2) failed to assign
error to the trial court’s refusal to give a limiting
instruction regarding the cell phone text messages (id. at
CM/ECF p. 28); (3) failed to object or assign error to
photos of an individual believed to be Jimmy Levering
flashing gang signs being shown to the jury (id. at
CM/ECF pp, 30-31); (4) failed to object or assign error to
the State showing the jury a photo of a coat worn by
Petitioner the night of his arrest and saying the coat had
bloodstains on it (id. at CM/ECF pp. 60-61); and (5) failed
to request an attempted manslaughter instruction or assign

2 The court has corrected the spelling of Marion’s first name throughout this
Memorandum and Order.
2

Case: 4:19-cv-03022-RGK-PRSE

Document #: 33-1

Date Filed: 07/06/2020

Page 3 of 63

error to the instruction not being given (id. at CM/ECF pp.
64-65).
Claim Three:

Petitioner was denied his constitutional right to a fair trial
because (1) the State committed prosecutorial misconduct
by its use of the “J-town” text messages (id. at CM/ECF
pp. 26-27); (2) the trial court refused to give a limiting
instruction regarding the cell phone text messages (id. at
CM/ECF p. 29); (3) the trial court denied Petitioner’s
motion for a mistrial after Detective Nick Herfordt
identified a photo found on the cellular phone in
Petitioner’s possession at the time of his arrest as Jimmy
Levering “an infamous gang member” (id. at CM/ECF pp.
34-36): (4) the trial court erred in admitting the cell phone
text messages because such evidence was inadmissible
hearsay (id. at CM/ECF at pp. 39^40); (5) the trial court
erred in admitting the cell phone text messages as
statements of a co-conspirator (id. at CM/ECF pp. 43-^44);
and (6) the trial court failed to instruct the jury on a co­
conspirator rule and its application to hearsay exceptions
(id. at CM/ECF p. 44).
II. BACKGROUND

A. Convictions and Sentences
The court states the facts as they were recited by the Nebraska Supreme Court
in State v. Henderson, 854 N.W.2d 616 (Neb. 2014) (filing no. 14-1). See Bucklew
v. Luebbers, 436 F.3d 1010, 1013 (8th Cir. 2006) (utilizing state court’s recitation
of facts on review of federal habeas petition).

3

Case: 4:19-cv-03022-RGK-PRSE

Document #: 33-1

Date Filed: 07/06/2020

Page 4 of 63

1. Charges and General Evidence
Henderson was convicted of first degree murder in connection with the
shooting death of Matthew Voss and attempted first degree murder in connection
with the shooting of Antonio Washington. He was convicted of two counts of use of
a deadly weapon to commit a felony in connection with the foregoing crimes. He
was also convicted of possession of a deadly weapon by a prohibited person.
Testimony at trial indicated that in the early morning hours of February 18,
2012, a fight broke out at an after-hours party in downtown Omaha, Nebraska.
Witnesses reported seeing two men firing guns. Voss and Washington both sustained
gunshot wounds; Voss died as a result of his wounds, while Washington survived
but was severely injured.
Henderson was apprehended by police as he was running from the scene of
the incident. A person who was at the scene had identified Henderson to a police
officer as one of the shooters. The other suspect was not apprehended. One gun was
found on Henderson’s person when he was arrested, and a police officer saw
Henderson throw another gun under a vehicle as the officer was chasing him.
Forensic evidence presented at trial indicated that bullets and casings found at
the scene of the shootings had been fired from the gun found on Henderson and from
the gun he was seen throwing under a vehicle. A fingerprint on the gun found under
the vehicle matched Henderson’s. In addition, DNA testing of blood found on the
clothing worn by Henderson at the time of his arrest indicated that the blood had
come from Voss.
The State maintained at trial that Henderson shot Voss and Washington to
retaliate for an assault on Henderson’s friend, Jimmy Levering. Levering and Voss
had both been inmates at a prison in Florida, and Voss had allegedly stabbed and
punched Levering.

4

Case: 4:19-cv-03022-RGK-PRSE

Document #: 33-1

Date Filed: 07/06/2020

Page 5 of 63

2. Apprehension of Henderson
Omaha police officer Paul Sarka responded to a call regarding a fight or
disturbance in the area of 16th and Harney Streets around 3 a.m. on February 18,
2012. Sarka saw a group of people outside a building in the area, but he did not see
a disturbance. He circled the block and then pulled his police cruiser into an alley to
park and write a report on his response to the call. Soon after parking, Sarka heard
several gunshots. He pulled his cruiser out of the alley and, with the lights and sirens
turned on, drove in the direction from which he thought he had heard the gunshots,
which direction was toward the group of people he had seen near 16th and Harney
Streets. As he drove, he radioed a message to dispatch saying, ‘“Shots were fired.
Send more officers.’”
Sarka saw 20 to 30 people running from the scene screaming and looking like
they were in fear. Sarka yelled out of his cruiser’s window to the people asking them
who had done the shooting, but he did not get a response. The driver of a white sport
utility vehicle rolled down his window, and when Sarka asked whether the driver
had seen who did the shooting, the driver replied that it was “‘the black male running
down the sidewalk of this side of the street in the tan Carhartt.’” Sarka saw only one
man in the group of people running on the sidewalk who was wearing a tan Carhartt
jacket; the man was later identified as Henderson.
Sarka yelled at Henderson, “‘Police, stop.’” Henderson made eye contact with
Sarka but then turned and continued running. Sarka chased Henderson, first in his
cruiser and then on foot. As Sarka was chasing Henderson on foot, another police
cruiser came toward Henderson which caused him to change direction. Sarka saw
Henderson pull an object that looked like a gun out of his waistband or pocket and
throw the object under a vehicle that was parked on the street. Sarka continued to
chase Henderson and was joined by another officer. The two eventually tackled
Henderson and handcuffed him. Sarka turned Henderson over to another officer,
Fred Hiykel. Sarka returned to the place where he had seen Henderson throw the
object under a vehicle. The object proved to be a gun.
5

Case: 4:19-cv-03022-RGK-PRSE

Document#: 33-1

Date Filed: 07/06/2020

Page 6 of 63

Hiykel responded to Sarka’s ‘“Shots were fired’” call and arrived just as Sarka
took Henderson into custody. Hiykel escorted Henderson to his police cruiser.
Hiykel searched Henderson and found a handgun in his pocket. He removed the gun
and put it in a plastic evidence bag. Hiykel put Henderson into the back of his cruiser
and drove him to police headquarters. In the interview room, Hiykel removed other
personal property from Henderson’s person and placed the property in an evidence
bag.
3. Search of Cell Phone
Dave Schneider was one of the homicide detectives from the Omaha Police
Department (OPD) assigned to investigate the shootings. One of Schneider’s duties
was to obtain a search warrant for a cell phone that was among the items of personal
property taken from Henderson upon his arrest. Schneider himself had not come into
contact with the cell phone, but he knew that other officers had turned the cell phone
on to obtain its serial number and telephone number. Schneider testified that the
other officers had placed the cell phone into “airplane mode” so that the cell phone
could not be remotely accessed for the purpose of deleting data. Schneider prepared
an affidavit and application for issuance of a warrant to search the contents of the
cell phone. In the affidavit and application, Schneider generally requested a warrant
to search “[a]ny and all information” contained on the cell phone. He specifically
listed contacts, cell phone call lists, text messages, and voice mails, and he also
requested “any other information that can be gained from the internal components
and/or memory Cards.” As grounds for the issuance of the warrant, Schneider
asserted that Henderson was a suspect in a shooting and that the cell phone was in
Henderson’s possession when he was arrested. The county court for Douglas County
issued the requested search warrant on February 18, 2012.
The search of the cell phone was conducted by another detective, Nick
Herfordt, during the afternoon of February 18, 2012. Herfordt downloaded
information from the cell phone, including the contact list, call history, and text
messages. Included in the information downloaded was a series of text messages
6

Case: 4:19-cv-03022-RGK-PRSE

Document #: 33-1

Date Filed: 07/06/2020

Page 7 of 63

exchanged between the cell phone and another number between 2:34 a.m. and 3:11
a.m. on February 18. Messages coming from the other number included two which
stated, “That Nigga that stab Jb up here” and “After hour on harney downtown.”
Messages sent from the searched cell phone included two which stated, “On my way
keep close eye” and “Im out side wat up?” Other messages appear to indicate that
the two persons exchanging the messages were attempting to meet up with one
another outside the location mentioned in earlier messages. Herfordt also found a
picture that was used as “wallpaper,” or the background on the cell phone’s screen.
The picture depicted a man, and at trial, witnesses identified the man in the picture
as Levering.
Prior to trial, on June 13,2012, Henderson filed a motion to suppress evidence
obtained from the search of the cell phone. He asserted, inter alia, that the affidavit
supporting the request for the search warrant “did not contain sufficient information
to establish probable cause to believe a crime or evidence of a crime would be found
on [Henderson’s] cellular telephone.” The district court held a hearing on the motion
to suppress on August 16. However, before the court ruled on the motion to suppress,
Schneider obtained a second warrant to search the cell phone.
The affidavit Schneider submitted to the county court in support of the second
warrant included the same information that had been included in the request for the
first warrant, but there was additional language stating:
In Affiant Officers [sic] experience and training as a detective it is
known that suspects that we have had contact with use cell phones to
communicate about shootings that they have been involved it [sic],
before, during, and afterwards. The communication can be though [sic]
voice, text, and social media, to name a few.
The county court issued a second search warrant based on the new affidavit
on September 14. On September 20, Herfordt searched the contents of the cell phone
a second time.

7

Case: 4:19-cv-03022-RGK-PRSE

Document #: 33-1

Date Filed: 07/06/2020

Page 8 of 63

On November 13, 2012, Henderson filed a motion to suppress evidence
obtained from the second search of the cell phone, and the district court held a
hearing on the motion on November 19. The court entered an order on January 17,
2013, overruling Henderson’s motion to suppress evidence obtained from the second
search. The court agreed with Henderson’s argument that the affidavit submitted in
support of the first search warrant issued on February 18, 2012, did not sufficiently
state why a search of the cell phone would produce evidence relevant to the crimes
for which Henderson was arrested and that therefore, there was not probable cause
to support the first search warrant. But the court continued that no warrant was
necessary because, in its view, the search of the cell phone, which was found on
Henderson at the time of his arrest, was a valid warrantless search incident to his
arrest. The court stated that because no warrant was needed to conduct the search,
issues regarding the validity of the second search warrant were moot.
Notwithstanding its conclusion that a warrant was not required, the district
court addressed the warrant issue “in the event it is eventually determined that the
Court is in error on that issue” regarding the need for a warrant. The court rejected
Henderson’s argument that the second warrant was an attempt to rehabilitate the
deficiencies of the first warrant and that the second warrant was tainted by the
execution of the first warrant. The court concluded that “there is little or no evidence
that ‘but for’ the execution of the first search warrant the State would not have
searched the cellular telephone using the properly issued second search warrant.”
After Henderson filed a motion to reconsider the ruling on the motion to
suppress, the court held another hearing focused on the validity of the second search
warrant. On February 7, 2013, the court entered an order overruling the motion to
reconsider and suppress evidence obtained from the second search. In the order, the
court specifically determined that the affidavit offered in support of the second
search warrant, which included the additional language quoted above, established
probable cause to search the cell phone. The court concluded that the second search
warrant was properly issued and executed.

8

Case: 4:19-cv-03022-RGK-PRSE

Document #: 33-1

Date Filed: 07/06/2020

Page 9 of 63

4. Issues Prior to and During Trial
Prior to trial, OPD filed a motion/ for a protective order against a subpoena
duces tecum that had been served by Henderson. The subpoena requested the keeper
of OPD’s records to appear at trial and provide a copy of gang files related to
Henderson and to an individual known as JB. At a hearing on the motion, OPD
argued that the files were confidential and subject to confidentiality restrictions
imposed by OPD and the federal government. OPD further asserted that disclosure
of such information could jeopardize its efforts in monitoring gang activity.
At the hearing on OPD’s motion, the court also considered motions in limine
Henderson had filed seeking to preclude the State from adducing evidence regarding
gang affiliations. At this hearing, the State represented that it had not seen any of the
OPD files and that it did not intend to introduce any evidence at trial regarding gang
affiliation. The court granted OPD’s motion for a protective order but indicated that
it might change its ruling if at trial the State introduced evidence to establish that the
“JB” referred to in the text message found on Henderson’s cell phone was Levering
and if such evidence was derived from information in the OPD gang files.
Herfordt testified at trial. When the State began to question Herfordt regarding
his search of the cell phone and the evidence he obtained from the search, Henderson
made a foundation objection that a proper chain of custody had not been established
for the cell phone. The court initially sustained the foundation objection, and the
State recalled Hiykel as a witness regarding the chain of custody. Hiykel testified
generally that after Henderson’s arrest, he took all items that Henderson had on his
person and put them into an evidence bag; however, Hiykel did not specifically recall
taking a cell phone. Herfordt then returned to the stand, and upon questioning by the
State, identified the cell phone as the one that he booked into property in connection
with the present case. When the State offered the cell phone into evidence,
Henderson objected based on foundation and the court admitted the cell phone into
evidence over the objection.

9

Case: 4:19-cv-03022-RGK-PRSE

Document #: 33-1

Date Filed: 07/06/2020

Page 10 of 63

Henderson also renewed his objections that the evidence was obtained in
violation of his Fourth Amendment rights against unreasonable searches. The court
overruled the objections based on its prior alternative rulings that the search of the
cell phone was valid as a warrantless search incident to Henderson’s arrest, that the
second search warrant was valid and supported by probable cause, and that the
search conducted pursuant thereto was legal.
Herfordt testified regarding what he found in his search of the cell phone. He
testified that the background picture that came up on the screen when the cell phone
was turned on “was that of someone known to be Jimmy Levering.” Henderson
objected based on foundation, and the court sustained the objection. The State
attempted to provide foundation by asking Herfordt how he knew the identity of the
person in the picture. Herfordt replied, “I worked Northeast Omaha when I was in
uniform, and Jimmy Levering, I guess, was kind of an infamous gang member. .. .”
Henderson immediately moved for a mistrial based on Herfordt’s reference to gang
affiliations, noting that the State had agreed in connection with Henderson’s pretrial
motion in limine that it would not introduce evidence regarding gang affiliations.
The court overruled the motion for a mistrial, and the State continued questioning
Herfordt regarding how he knew the person in the picture was Levering. Herfordt
testified that he had not had personal contact with Levering but had seen pictures of
him in the course of previous investigations. The State offered the picture taken from
the cell phone into evidence, and the court overruled Henderson’s objections based
on foundation and Fourth Amendment grounds.
Herfordt also testified regarding the text messages that he found on the cell
phone. Henderson objected to evidence regarding text messages on the basis that the
evidence was inadmissible hearsay. The State argued that the evidence was not being
offered to prove the truth of the matter asserted but to show the effect the messages
had on Henderson. The court overruled the hearsay objection.
The State also called Ramone Narvaez as a witness. Narvaez was a
correctional officer from a federal penitentiary in Florida. Narvaez testified that in
10

Case: 4:19-cv-03022-RGK-PRSE

Document #: 33-1

Date Filed: 07/06/2020

Page 11 of 63

December 2009, Levering, who was then an inmate at the penitentiary, ran into his
office followed by three other inmates who started punching Levering. Narvaez
testified that he and other officers broke up the fight and that Levering was taken to
the medical unit because he was bleeding from his torso. Narvaez testified that the
last name of one of the other inmates was “Voss” but that he did not know Voss’
first name. Narvaez was shown the picture that was taken from the cell phone, and
he testified that the person in the picture was the same person who had been involved
in the incident in Florida.
After the cross-examination and redirect testimony of Narvaez were
completed, Henderson moved for a mistrial or, in the alternative, for an order striking
Narvaez’ testimony on the basis that he was not able to establish that the “Voss” to
whom he referred in his testimony was the “Matthew Voss” who was a victim in this
case and that he had not testified that Levering was stabbed. Henderson argued that
without establishing these facts, Narvaez’ testimony was unfairly prejudicial. The
court overruled the motion for a mistrial and the motion to strike the testimony.
The State also called Omaha Police Det. Christopher Pema as a witness. Perna
was shown the picture from the cell phone, and he identified that person as Levering.
Pema testified that he had personally interviewed Levering in the course of other
investigations. Pema also testified that he had briefly interviewed a “Matthew Voss”
on March 31, 2010, at a federal penitentiary in Florida and that Levering’s name
“came up” in the interview. Pema was shown a picture of the victim in this case, and
Perna testified that the person in the picture was the “Matthew Voss” he had
interviewed in Florida.
5. Convictions and Sentences
The jury found Henderson guilty of first degree murder, attempted first degree
murder, two counts of use of a deadly weapon to commit a felony, and possession
of a deadly weapon by a prohibited person. The court sentenced Henderson to
imprisonment for life for first degree murder, for 50 to 50 years for attempted first
11

Case: 4:19-cv-03022-RGK-PRSE

Document #: 33-1

Date Filed: 07/06/2020

Page 12 of 63

degree murder, for 20 to 20 years on each of the convictions for use of a deadly
weapon, and for 20 to 20 years on the conviction for possession of a deadly weapon
by a prohibited person. The court ordered the sentences to be served consecutively.
B. Direct Appeal
Henderson appealed his convictions and sentences to the Nebraska Supreme
Court. Henderson was represented by the same counsel on appeal as at trial. In his
brief, Henderson assigned that the state district court erred when it (1) overruled his
motion to suppress evidence obtained from the search of the cell phone; (2) admitted
evidence obtained from the allegedly illegal search of the cell phone, including text
messages and pictures; (3) admitted evidence of items found on the cell phone over
his foundation objections; (4) admitted evidence of text messages over his hearsay
objections; (5) granted OPD’s motion for a protective order relating to gang files;
(6) denied Henderson’s motion for a mistrial based on Herfordt’s testimony that
Levering was “an infamous gang member”; (7) denied his motion to strike
Herfordt’s testimony for lack of foundation identifying Levering as the person in the
cell phone picture; and (8) overruled his motion for a mistrial and his motion to strike
Narvaez’ testimony. (Filing No. 14-1 at CM/ECF p. 10; Filing No. 14-5 at CM/ECF
pp. 10-11.)
In a published opinion, the Nebraska Supreme Court affirmed Henderson’s
convictions and sentences. (Filing No. 14-1.) On June 15, 2015, the United States
Supreme Court denied Henderson’s petition for a writ of certiorari. See Henderson
v. Nebraska, 135 S. Ct. 2845 (2015). {See also Filing No. 14-10; Filing No. 14-11.)
C. Postconviction Action
Henderson, through newly appointed counsel, filed an amended motion for
postconviction relief on February 5, 2016. (Filing No. 14-17 at CM/ECF pp. 2-25.)
Henderson alleged various instances of ineffective assistance of trial and appellate
counsel, prosecutorial misconduct, and trial court error. (Id. at CM/ECF pp. 2-16.)
12

Case: 4:19-cv-03022-RGK-PRSE

Document #: 33-1

Date Filed: 07/06/2020

Page 13 of 63

Henderson alleged that he was denied effective assistance of counsel because
trial counsel (1) failed to interview or call Timothy Washington, Deonta Marion, and
Jermaine Westbrook as witnesses; (2) failed to move to compel testing of the DNA
sample taken from Jeremy Terrell; (3) failed to move to compel testing of the
gunshot residue swabs taken from Kevin Washington, James Garrett, Antonio
Washington, and Matthew Voss; (4) allowed prejudicial gang evidence to be
introduced at trial; (5) failed to object on authentication grounds to the admission of
“J Town” text messages obtained from Henderson’s cell phone; (6) failed to properly
brief the trial court concerning the “J Town” text messages before a suppression
hearing on the second search warrant; (7) failed to object to the search of
Henderson’s cell phone on Fourth Amendment grounds; (8) failed to object on
relevancy grounds to Narvaez’s testimony until after Narvaez’s testimony was
complete; (9) failed to request lesser-included offenses for the charge of attempted
first degree murder; (10) failed to object on authentication and prejudice grounds to
the admission of the Carhartt coat allegedly worn by Henderson on the night of the
shooting; (11) failed to pursue claims of witness tampering by Antonio Washington;
(12) misstated the testimony of Vasili Petrihos; and (13) failed to obtain
impeachment evidence from the OPD. (Id. at CM/ECF pp. 6-17.)
Henderson alleged that appellate counsel was ineffective for failing to raise
on direct appeal the above issues, excluding the issues in (1) and (4). (Id.) In addition,
Henderson alleged that appellate counsel was ineffective for failing to raise on direct
appeal that (1) the trial court erred in rejecting his limiting instruction regarding the
“J Town” text messages (id. at CM/ECF p. 10); and (2) the opinion in State v.
Tompkins, 723 N.W.2d 344 (Neb. 2006), modified on denial of rehearing, 727
N.W.2d 423 (2007), precluded the Nebraska Supreme Court from finding that text
messages from the cell phone found on Henderson were admissible under the good
faith exception to the exclusionary rule (filing no. 14-17 at CM/ECF pp. 15-16).
Henderson further alleged that he was denied his constitutional right to a fair
trial because the State committed prosecutorial misconduct when it (1) used the “J
Town” text messages for the truth of the matter asserted; (2) appealed the trial court’s
13

Case: 4:19-cv-03022-RGK-PRSE

Document #: 33-1

Date Filed: 07/06/2020

Page 14 of 63

decision finding no probable cause by arguing that there was probable cause, in
violation of Neb. Rev. Stat. § 29-2315.01; and (3) allowed James Garrett to testify
at trial that he was not receiving “any sort of deal in exchange” for his testimony.
(Filing No. 14-17 at CM/ECF pp. 17-19.)
Finally, Henderson alleged that he was denied a fair trial because the trial
court erred when it (1) denied his motions to suppress the evidence from his cell
phone; (2) overruled his motion in limine regarding the “J Town” text messages; (3)
rejected his proposed limiting instruction regarding the “J Town” text messages; (4)
instructed the State to get a second search warrant after a search had already been
conducted; (5) overruled his motion for mistrial regarding Herfordt’s “infamous
gang member” testimony; (6) overruled his motion for mistrial and motion to strike
Narvaez’s testimony and did not permit trial counsel to voir dire Narvaez; and (7)
overruled his chain-of-custody and foundation objections to the items seized from
him while in custody. (Id. at CM/ECF pp. 19-25.)
In response to Henderson’s amended postconviction motion, the State filed a
motion to dismiss. (Id. at CM/ECF pp. 58-59.) In a written order filed May 1, 2017,
the state district court denied postconviction relief without an evidentiary hearing.
(Id. at CM/ECF pp. 60-75.) It determined that Henderson had failed to show either
that he had received deficient representation or that he had suffered prejudice. (Id. at
CM/ECF pp. 67-74.) The court also determined that Henderson’s claims of
prosecutorial misconduct and trial court error were procedurally barred because they
could have been brought on direct appeal. (Id. at CM/ECF p. 75.)
Henderson appealed to the Nebraska Supreme Court, assigning and arguing
that the state district court erred in denying him an evidentiary hearing on his
application for postconviction relief on almost all his ineffective assistance of trial
counsel claims. (Filing No. 14-12 at CM/ECF pp. 5. 25-40.) Henderson also argued
that appellate counsel was ineffective for failing to raise on direct appeal (1) that the
trial court erred in rejecting his proposed limiting instruction regarding the text
messages; (2) Fourth Amendment violations concerning the search of his cell phone;
14

Case: 4:19-cv-03022-RGK-PRSE

Document#: 33-1

Date Filed: 07/06/2020

Page 15 of 63

(3) that Narvaez’s testimony was irrelevant (id. at CM/ECF p. 37): and (4) that the
opinion in Tompkins, 723 N.W.2d 344, precluded the Nebraska Supreme Court from
finding that text messages from the cell phone found on Henderson were admissible
under the good faith exception to the exclusionary rule. (Filing No. 14-12 at
CM/ECF pp. 36-41).
In a published opinion filed November 30,2018, the Nebraska Supreme Court
affirmed the state district court’s decision to deny Henderson’s postconviction
claims without an evidentiary hearing. (Filing No. 14-2.)
D. Habeas Petition
Henderson filed his Petition for Writ of Habeas Corpus in this court on March
20, 2019. (Filing No. 1.) In response to the Petition, Respondents filed an Answer
(filing no. 17), a Brief (filing no. 18). and the relevant state court records (filing no,
14). Respondents argue that Henderson’s claims are either procedurally defaulted or
without merit. Henderson filed a brief (filing no. 21) in response to Respondents’
Answer, and Respondents filed a reply brief (filing no. 26).3 This matter is fully
submitted for disposition.
3 On February 14, 2020, after briefing had been completed and this habeas
case was ripe for decision, Respondents filed a Supplemental Designation of State
Court Records in Support of Answer (filing no. 27) to notify the court that
Respondents’ counsel was contacted by an employee of the Douglas County District
Court Clerk’s Office and informed that DVDs in Henderson’s case had been located
in the Sarpy County District Court Clerk’s Office. Counsel was unaware the DVDs
were missing from the state court records until the employee contacted her. (Id.) On
February 24,2020, Henderson filed a Motion for Subpoena Duces Tecum requesting
that Respondents be required “to provide [him] with the records (videos) for physical
review because said D.V.D.’s could be material evidence in the matter” and “are
potentially critical to the defense of his case.” (Filing No. 28.) The court entered
an order (filing no, 30) directing Respondents to file copies of the six DVDs
identified in the Supplemental Designation of State Court Records but denied
Henderson’s request to have copies of the DVDs physically provided to him at that
time as he failed to demonstrate good cause or need for such discovery or how the
DVDs are relevant to his habeas claims. Respondents filed copies of the six DVDs
15
19 U

Case: 4:19-cv-03022-RGK-PRSE

Document #: 33-1

Date Filed: 07/06/2020

Page 16 of 63

III. OVERVIEW OF APPLICABLE LAW
Three strands of federal habeas law intertwine in this case. They are (1)
exhaustion and procedural default; (2) the deference that is owed to the state courts
when a federal court reviews the factual or legal conclusions set forth in an opinion
of a state court; and (3) the standard for evaluating a claim of ineffective assistance
of counsel. The court elaborates upon those concepts next so that it may apply them
later in a summary fashion as it reviews Henderson’s claims.
A. Exhaustion and Procedural Default
As set forth in 28 U.S.C. § 2254:
(b)(1) An application for a writ of habeas corpus on behalf of a person
in custody pursuant to the judgment of a State court shall not be granted
unless it appears that(A) the applicant has exhausted the remedies available in the courts of
the State; or
(B)(i) there is an absence of available State corrective process; or
(ii) circumstances exist that render such process ineffective to protect
the rights of the applicant.
28 U.S.C. § 2254(b)(1).
The United States Supreme Court has explained the habeas exhaustion
requirement as follows:
(filing no. 31) identified in the Supplemental Designation of State Court Records
(filing no. 27) as directed by the court. The court reviewed the DVDs and found that
the only evidence relevant to Henderson’s habeas claims on the DVDs had already
been provided by Respondents. (Filing No. 32; see also Filing No. 14-23 atCM/ECF
pp. 56-57, 62.) Accordingly, the court advised the parties that it would not rely on
any of the DVDs in assessing Henderson’s habeas claims. (Filing No. 32.)
16

Case: 4:19-cv-03022-RGK-PRSE

Document #: 33-1

Date Filed: 07/06/2020

Page 17 of 63

Because the exhaustion doctrine is designed to give the state courts a
full and fair opportunity to resolve federal constitutional claims before
those claims are presented to the federal courts. . . state prisoners must
give the state courts one full opportunity to resolve any constitutional
issues by invoking one complete round of the State’s established
appellate review process.
O’Sullivan v. Boerckel, 526 U.S. 838, 845 (1999).
A state prisoner must therefore present the substance of each federal
constitutional claim to the state courts before seeking federal habeas corpus relief.
In Nebraska, “one complete round” ordinarily means that each § 2254 claim must
have been presented to the trial court, and then in an appeal to either the Nebraska
Supreme Court directly4 or to the Nebraska Court of Appeals, and then in a petition
for further review to the Nebraska Supreme Court if the Court of Appeals rules
against the petitioner. See Akins v. Kenney, 410 F.3d 451, 454-55 (8th Cir. 2005).
“In order to fairly present a federal claim to the state courts, the petitioner
must have referred to a specific federal constitutional right, a particular
constitutional provision, a federal constitutional case, or a state case raising a
pertinent federal constitutional issue in a claim before the state courts.” Carney v.
Fabian, 487 F.3d 1094, 1096 (8th Cir. 2007) (internal citation and quotation
omitted). Although the language need not be identical, “[presenting a claim that is
merely similar to the federal habeas claim is not sufficient to satisfy the fairly
presented requirement.” Barrett v. Acevedo, 169 F.3d 1155,1162 (8th Cir. 1999). In
contrast, “[a] claim has been fairly presented when a petitioner has properly raised
the ‘same factual grounds and legal theories’ in the state courts which he is
attempting to raise in his federal habeas petition.” Wemark v. Iowa, 322 F.3d 1018,
1021 (8th Cir. 2003) (citation omitted).

4 Where a life sentence has been imposed in a criminal case, the appeal goes
directly to the Nebraska Supreme Court. Neb. Rev. Stat. § 24-1106 (West).
17

Case: 4:19-cv-03022-RGK-PRSE

Document #: 33-1

Date Filed: 07/06/2020

Page 18 of 63

Where “no state court remedy is available for the unexhausted claim—that is,
if resort to the state courts would be futile—then the exhaustion requirement in §
2254(b) is satisfied, but the failure to exhaust ‘provides an independent and adequate
state-law ground for the conviction and sentence, and thus prevents federal habeas
corpus review of the defaulted claim, unless the petitioner can demonstrate cause
and prejudice for the default.’” Armstrong v. Iowa, 418 F.3d 924, 926 (8th Cir. 2005)
(quoting Gray v. Netherlands 518 U.S. 152, 162 (1996)).
To be precise, a federal habeas court may not review a state prisoner’s federal
claims if those claims were defaulted in state court pursuant to an independent and
adequate state procedural rule “unless the prisoner can demonstrate cause for the
default and actual prejudice as a result of the alleged violation of federal law, or
demonstrate that failure to consider the claims will result in a fundamental
miscarriage of justice.” Coleman v. Thompson, 501 U.S. 722, 750 (1991). Also, a
credible showing of actual innocence may allow a prisoner to pursue his
constitutional claims on the merits notwithstanding the existence of a procedural bar
to relief. McQuiggin v. Perkins, 569 U.S. 383, 392 (2013). To invoke the actual
innocence exception, a petitioner “must show that in light of all the evidence, ‘it is
more likely than not that no reasonable juror would have found petitioner guilty
beyond a reasonable doubt.’” Jennings v. United States, 696 F.3d 759, 764-65 (8th
Cir. 2012) (quoting Schlup v. Delo, 513 U.S. 298, 327, (1995)). “‘[Ajctual
innocence’ means factual innocence, not mere legal insufficiency.” Id. (quoting
Bousley v. United States, 523 U.S. 614, 623 (1998)).

18

case: 4:l9-cv-03022-RGK-PRSE

Document #: 33-1

Date Filed: 07/06/2020

Page 19 of 63

B. Nebraska Law Relevant to Procedural Default
Under Nebraska law, you don’t get two bites of the postconviction apple; that
is, “[a]n appellate court will not entertain a successive motion for postconviction
relief unless the motion affirmatively shows on its face that the basis relied upon for
relief was not available at the time the movant filed the prior motion.” State v. Ortiz,
670 N.W.2d 788, 792 (Neb. 2003). Additionally, “[a] motion for postconviction
relief cannot be used to secure review of issues which were or could have been
litigated on direct appeal.” Hall v. State, 646 N.W.2d 572, 579 (Neb. 2002). See also
State v. Thorpe, 858 N.W.2d 880, 887 (Neb. 2015) (“A motion for postconviction
relief cannot be used to secure review of issues which were or could have been
litigated on direct appeal, no matter how those issues may be phrased or rephrased.”).
Moreover, a person seeking postconviction relief must present his or her claim
to the district court or the Nebraska appellate courts will not consider the claim on
appeal. State v. Deckard, 722 N.W.2d 55, 63 (Neb. 2006) (denying postconviction
relief in a murder case and stating: “An appellate court will not consider as an
assignment of error a question not presented to the district court for disposition
through a defendant’s motion for postconviction relief.”) Similarly, on appeal, the
appealing party must both assign the specific error and specifically argue that error
in the brief. Otherwise the claim is defaulted under Nebraska law. State v. Henry,
875 N.W.2d 374, 407 (Neb. 2016) (stating an alleged error must be both specifically
assigned and specifically argued in the brief of the party asserting the error to be
considered by an appellate court).
Note also that Nebraska has a statute of limitations for bringing postconviction
actions that is similar to federal law. It reads:
(4) A one-year period of limitation shall apply to the filing of a verified
motion for postconviction relief. The one-year limitation period shall
run from the later of:

19

case: 4:l9-cv-03022-RGK-PRSE

Document#: 33-1

Date Filed: 07/06/2020

Page 20 of 63

(a) The date the judgment of conviction became final by
the conclusion of a direct appeal or the expiration of the
time for filing a direct appeal;
(b) The date on which the factual predicate of the
constitutional claim or claims alleged could have been
discovered through the exercise of due diligence;
(c) The date on which an impediment created by state
action, in violation of the Constitution of the United States
or the Constitution of Nebraska or any law of this state, is
removed, if the prisoner was prevented from filing a
verified motion by such state action;
(d) The date on which a constitutional claim asserted was
initially recognized by the Supreme Court of the United
States or the Nebraska Supreme Court, if the newly
recognized right has been made applicable retroactively to
cases on postconviction collateral review; or
(e) August 27, 2011.
Neb. Rev. Stat. § 29-3001(4) (West).
C. Deferential Standard Under 28 U.S.C. § 2254(d)
When a state court has adjudicated a habeas petitioner’s claim on the merits,
there is a very limited and extremely deferential standard of review both as to the
law and the facts. See 28 U.S.C. § 2254(d). Section 2254(d)(1) states that a federal
court may grant a writ of habeas corpus if the state court’s decision “was contrary
to, or involved an unreasonable application of, clearly established Federal law, as
determined by the Supreme Court of the United States.” 28 U.S.C. § 2254(d)(1). As
explained by the Supreme Court in Williams v. Taylor, 529 U.S. 362 (2000), a state
court acts contrary to clearly established federal law if it applies a legal rule that
contradicts the Supreme Court’s prior holdings or if it reaches a different result from
one of that Court’s cases despite confronting indistinguishable facts. Id. at 405-06.
20

v^clSt:. ^.XS-UV-UJU^Z-KOK-^KSt

uocumeni w. zz-i

uaie Hiea: u^/ub/zuzu

page zi or b3

Further, “it is not enough for [the court] to conclude that, in [its] independent
judgment, [it] would have applied federal law differently from the state court; the
state court’s application must have been objectively unreasonable.” Rousan v.
Roper, 436 F.3d 951, 956 (8th Cir. 2006).
With regard to the deference owed to factual findings of a state court’s
decision, section 2254(d)(2) states that a federal court may grant a writ of habeas
corpus if a state court proceeding “resulted in a decision that was based on an
unreasonable determination of the facts in light of the evidence presented in the State
court proceeding.” 28 U.S.C. § 2254(d)(2). Additionally, a federal court must
presume that a factual determination made by the state court is correct, unless the
petitioner “rebutfs] the presumption of correctness by clear and convincing
evidence.” 28 U.S.C. § 2254(e)(1).
As the Supreme Court noted, “[i]f this standard is difficult to meet, that is
because it was meant to be.” Harrington v. Richter, 562 U.S. 86, 102 (2011). The
deference due state court decisions “preserves authority to issue the writ in cases
where there is no possibility fairminded jurists could disagree that the state court’s
decision conflicts with [Supreme Court] precedents.” Id.
However, this high degree of deference only applies where a claim has been
adjudicated on the merits by the state court. See Brown v. Luebbers, 371 F.3d 458,
460 (8th Cir. 2004) (“[A]s the language of the statute makes clear, there is a
condition precedent that must be satisfied before we can apply the deferential
AEDPA [Antiterrorism and Effective Death Penalty Act] standard to [the
petitioner’s] claim. The claim must have been ‘adjudicated on the merits’ in state
court.”).
The Eighth Circuit clarified what it means for a claim to be adjudicated on the
merits, finding that:

21

Case: 4:l9-cv-03022-RGK-PRSE

Document #: 33-1

Date Filed: 07/06/2020

Page 22 of 63

AEDPA’s requirement that a petitioner’s claim be adjudicated on the
merits by a state court is not an entitlement to a well-articulated or even
a correct decision by a state court. Accordingly, the postconviction trial
court’s discussion of counsel’s performance—combined with its
express determination that the ineffective-assistance claim as a whole
lacked merit—plainly suffices as an adjudication on the merits under
AEDPA.
Worthington v. Roper, 631 F.3d 487, 496-97 (8th Cir. 2011) (internal quotation
marks and citations omitted).
The court also determined that a federal court reviewing a habeas claim under
AEDPA must “look through” the state court opinions and “apply AEDPA review to
the ‘last reasoned decision’ of the state courts.” Id. at 497. A district court should do
“so regardless of whether the affirmance was reasoned as to some issues or was a
summary denial of all claims.” Id.
D. The Especially Deferential Strickland Standard
When a petitioner asserts an ineffective assistance of counsel claim, the twopronged standard of Strickland v. Washington, 466 U.S. 668 (1984), must be applied.
The standard is very hard for offenders to satisfy.
Strickland requires that the petitioner demonstrate both that his counsel’s
performance was deficient, and that such deficient performance prejudiced the
petitioner’s defense. Id. at 687. The first prong of the Strickland test requires that the
petitioner demonstrate that his attorney failed to provide reasonably effective
assistance. Id. at 687-88. In conducting such a review, the courts “indulge a strong
presumption that counsel’s conduct falls within the wide range of reasonable
professional assistance.” Id. at 689.
The second prong requires the petitioner to demonstrate “a reasonable
probability that, but for counsel’s unprofessional errors, the result of the proceeding
would have been different.” Id. at 694. Further, as set forth in Strickland, counsel’s
22

Case: 4:19-cv-03022-RGK-PRSE

Document #: 33-1

Date Filed: 07/06/2020

Page 23 of 63

“strategic choices made after thorough investigation of law and facts relevant to
plausible options are virtually unchallengeable” in a later habeas corpus action. Id.
at 690.
Additionally, the Supreme Court has emphasized that the deference due the
state courts applies with special vigor to decisions involving ineffective assistance
of counsel claims. Knowles v. Mirzayance, 556 U.S. Ill (2009). In Knowles, the
Justices stressed that under the Strickland standard, the state courts have a great deal
of “latitude” and “leeway,” which presents a “substantially higher threshold” for a
federal habeas petitioner to overcome. As stated in Knowles:
The question is not whether a federal court believes the state court’s
determination under the Strickland standard was incorrect but whether
that determination was unreasonable—a substantially higher threshold.
And, because the Strickland standard is a general standard, a state court
has even more latitude to reasonably determine that a defendant has not
satisfied that standard.
Id. at 123 (internal quotation marks and citations omitted).
Strickland applies equally to appellate counsel, and appellate counsel is
entitled to the “benefit of the doubt.” Woods v. Etherton, 136 S. Ct. 1149, 1153
(2016). To demonstrate prejudice on account of appellate counsel’s failure to raise
a claim on appeal, a petitioner must show a “reasonable probability that an appeal of
[the] issue would have been successful and that the result of the appeal would
thereby have been different.” Pryor v. Norris, 103 F.3d 710, 714 (8th Cir. 1997).
The petitioner must show more than that the alleged error had some conceivable
effect on the outcome of the proceeding. Id. at 713. “‘Virtually every act or omission
of counsel would meet that test, and not every error that conceivably could have
influenced the outcome undermines the reliability of the result of the proceeding.’”
Id. (quoting Strickland, 466 U.S. at 693).

23

Case: 4:19-cv-03022-RGK-PRSE

Document #: 33-1

Date Filed: 07/06/2020

Page 24 of 63

IV. DISCUSSION
A. Claim One
Claim One consists of multiple allegations of ineffective assistance of trial
counsel.
1. Subpart (1)
Ay4

Henderson asserts that he was denied effective assistance of counsel because
trial counsel failed to raise and argue Henderson’s actual innocence. (Filing No. 1 at
CM/ECF p. 19.) He claims that the “only crime [he] committed was ‘possessing a
firearm’ when he picked up the discarded murder weapons.” (Id.)
As Respondents point out, Henderson did not raise this claim in his amended
postconviction motion. Thus, this claim is now procedurally defaulted, not
unexhausted, because Nebraska courts would not consider a successive
postconviction motion on this claim. See State v. Sims, 761 N.W.2d 527, 533 (Neb.
2009) (“[A]n appellate court will not entertain a successive motion for
postconviction relief unless the motion affirmatively shows on its face that the basis
relied upon for relief was not available at the time the movant filed the prior
motion”); Ortiz, 670 N.W.2d at 792 (same). Furthermore, any successive
postconviction motion filed by Henderson would also be barred by Nebraska’s
statute of limitations.
Assuming, without deciding, that Martinez v. Ryan, 566 U.S. 1 (2012), and
Trevino v. Thaler, 569 U.S. 413 (2013), apply to federal habeas corpus cases arising
from Nebraska convictions,5 the holding in these cases do nothing to excuse the
5 The court does not believe that Martinez v. Ryan, 566 U.S. 1 (2012), or
Trevino v. Thaler, 569 U.S. 413 (2013), applies in Nebraska. See Kidder v. Frakes,
400 F. Supp. 3d 809, 818 n.4 (D. Neb. 2019). This is because Nebraska demands
that ineffective assistance of trial counsel claims be raised on direct appeal when
24

Case: 4:19-cv-03022-RGK-PRSE

Document #: 33-1

Date Filed: 07/06/2020

Page 25 of 63

procedural default of Henderson’s ineffective assistance of trial counsel claim. In
Martinez,6 the Supreme Court held that “a procedural default will not bar a federal
habeas court from hearing a substantial claim of ineffective assistance at trial if, in
the initial-review collateral proceeding, there was no counsel or counsel in that
proceeding was ineffective.” 566 U.S. at 17. Accordingly, under Martinez, a
petitioner may claim ineffective assistance of postconviction counsel to establish
“cause” for procedural default of a habeas claim of ineffective assistance of trial
counsel. To establish cause in this manner, the petitioner must show that
postconviction counsel’s assistance was ineffective under the standards of
Strickland, and further demonstrate that his underlying claim of ineffective
assistance of trial counsel is a “substantial” one, that is, that the claim has some
merit. Martinez, 566 U.S. at 14. If the State demonstrates that the underlying claim
of ineffective assistance of trial counsel is unsubstantial or non-meritorious, the
petitioner cannot establish that postconviction counsel was ineffective and thus
cannot show cause for default of the underlying claim. Id. at 15-16.
The court finds that Henderson’s ineffective assistance of trial counsel claim
is refuted by the record and lacking in merit. In closing, trial counsel advanced the
very argument that Henderson now claims he did not raise: Henderson was at the
scene of the crime and was found in possession of the two firearms, but he was not
one of the shooters; thus, he was only guilty of being a prohibited person in
possession of a firearm and could not be guilty of first degree murder, attempted first
degree murder, and use of a deadly weapon to commit the foregoing felonies.
0Compare Filing No. 1 at CM/ECF p. 19 with Filing No. 14-22 at CM/ECF pp. 20209.) Because this claim is without merit, Martinez does not apply to excuse the
procedural default. Thus, Henderson is not entitled to habeas relief on Claim One,
Subpart (1).
appellate counsel is different than trial counsel. State v. Filholm, 848 N.W.2d 571,
576 (Neb. 2014).
6 For the sake of brevity, the court will refer to Martinez and Trevino
collectively as “Martinez” throughout this Memorandum and Order.
25

Case: 4:19-cv-03022-RGK-PRSE

Document #: 33-1

Date Filed: 07/06/2020

Page 26 of 63

2. Subpart (2)
Henderson alleges that he was denied effective assistance of counsel because
trial counsel failed to move to compel DNA and gunshot residue testing. (Filing No.
1 at CM/ECF pp. 19-20,47-49.)
a. DNA Testing
Henderson alleges that there were “multiple D.N.A. samples on the grips of
the weapons” and that trial counsel was ineffective for failing to move to compel
testing on those samples. (Id. at CM/ECF p. 48.) Henderson then names only one
person—James Garrett—whose DNA should have been tested. (Id. )
In his amended postconviction motion, Henderson did not identify James
Garrett as an individual whose DNA should have been tested. (Filing No. 14-7 at
CM/ECF pp. 7-8.) Thus, Henderson’s claim that trial counsel was ineffective for
failing to move to compel testing on James Garrett is now procedurally defaulted,
not unexhausted, because Nebraska courts would not consider a successive
postconviction motion on that claim. See Sims, 761 N.W.2d at 533; Ortiz, 670
N.W.2d at 792. Furthermore, any successive postconviction motion filed by
Henderson would also be barred by Nebraska’s statute of limitations.
The court finds that Martinez does not apply to excuse the procedural default,
because the ineffective assistance of trial counsel claim is lacking in merit. As
discussed directly below, the DNA analyst testified at trial that a mixture of DNA
from at least three people was found on the grip of one of the guns recovered upon
Henderson’s arrest, but testing could not show the identities of those sources with
any degree of certainty. (Filing No. 14-2 at CM/ECF p. 11.) The DNA analyst’s
testimony suggests that even if James Garrett’s DNA sample had been tested and
compared to the DNA mixture on the gun grip, the result would have been
inconclusive. Therefore, Henderson fails to show a reasonable probability that DNA
testing on James Garrett would have resulted in a different outcome at trial.
26

Case: 4:19-cv-03022-RGK-PRSE

Document #: 33-1

Date Filed: 07/06/2020

Page 27 of 63

Accordingly, Henderson’s claim that trial counsel was ineffective for failing to move
to compel DNA testing on James Garrett necessarily fails.
Henderson did assert both in his amended postconviction motion (filing no.
14-7 at CM/ECF pp. 7-8) and in his brief on postconviction appeal (filing no. 14-12
at CM/ECF pp. 32-33), that trial counsel was ineffective for failing to move for DNA
testing on a sample taken from Jeremy Terrell, another suspect in the case. To the
extent Henderson is asserting this same claim in his Petition, the court concludes
that it is without merit. In its opinion affirming the state district’s denial of
postconviction relief, the Nebraska Supreme Court considered and rejected the claim
as follows:
As previously mentioned, shortly before the shooting, text messages
were sent from the cell phone found on Henderson’s person. Those
messages were responses to text messages from a telephone number
assigned to Terrell, also referred to as “Jay Town.” The correspondence
indicated that “Jay Town” and the recipient were attempting to meet
one another outside the after-hours party where the shooting occurred
and that the individual who stabbed “Jb” was there. Terrell was not
apprehended at the scene of the shootings. Police later attempted to
interview him, but he refused to provide any information. Police
obtained a DNA sample from Terrell, but the sample was not tested.
Law enforcement conducted DNA testing on samples taken only from
Henderson and Voss. That testing led to the conclusion that blood found
on Henderson’s shirt and shoes had come from Voss. It also showed a
mixture of DNA from at least three people on the grip of one of the
guns recovered upon Henderson’s arrest, but testing could not show the
identities of those sources with any degree of certainty. A DNA analyst
explained that because of the mixture, many people could be indicated
and the probability that a random individual matched a DNA profile
found in the mixture was 1 in 3 for Caucasians, 1 in 2 for African
Americans, and 1 in 4 for Hispanic Americans. The DNA analyst
testified that consequently, test results comparing the mixture to
Henderson’s and Voss’ DNA were inconclusive, meaning that she
could not be certain whether either man’s DNA was present or not
present on the gun grip.
27

Case: 4:19-cv-03022-RGK-PRSE

Document #: 33-1

Date Filed: 07/06/2020

Page 28 of 63

In his application for postconviction relief, Henderson referenced the
mixture of DNA from at least three people and alleged that testing
Terrell’s sample “may have” exculpated Henderson on its own or led
to a more thorough investigation that “could have” revealed more
evidence pointing to “the actual shooters.” Even if we were to consider
Henderson’s allegation sufficiently specific, he has failed to show
ineffective assistance of counsel. The DNA analyst’s testimony
suggests that even if Terrell’s DNA sample had been tested and
compared to the DNA mixture on the gun grip, the result would have
been inconclusive, and Henderson makes no allegation that the DNA
analyst’s testimony was incorrect. Therefore, Henderson’s motion
failed to show a reasonable probability that DNA testing would have
resulted in a different outcome at trial. In the absence of any prejudice
to Henderson, then, the district court did not err in denying Henderson
an evidentiary hearing concerning DNA testing.
(Filing No. 14-2 at CM/ECF all.)
The court finds that the Nebraska Supreme Court reasonably applied
Strickland in concluding that Henderson had not demonstrated prejudice from trial
counsel’s failure to move for DNA testing on a sample taken from Jeremy Terrell.
Thus, applying the deferential standards required by both Strickland and by 28
U.S.C. § 2254(d), the court finds nothing to indicate that the Nebraska Supreme
Court’s ruling was based on an unreasonable determination of the facts in light of
the evidence or was contrary to, or involved an unreasonable application of, clearly
established Federal law.
b. Gunshot Residue Testing
Henderson argues that he was denied effective assistance of counsel because
trial counsel failed to move to compel gunshot residue testing on the swabs taken
from Kevin Washington, James Garrett, Antonio Washington, and Matthew Voss.
(Filing No. 1 at CM/ECF p. 48.) Henderson also argues that trial counsel was
ineffective for failing to move to compel gunshot residue testing on Henderson. (Id.
at CM/ECF pp. 19-20. 47^8.)
28

Case: 4:19-cv-03022-RGK-PRSE

Document #: 33-1

Date Filed: 07/06/2020

Page 29 of 63

In his amended postconviction motion, Henderson did not raise the claim that
trial counsel was ineffective for failing to move to compel gunshot residue testing
on Henderson.7 (Filing No. 14-7 at CM/ECF pp. 7-8.) Thus, this claim is now
procedurally defaulted, not unexhausted, because Nebraska courts would not
consider a successive postconviction motion on that claim. See Sims, 761 N.W.2d at
533; Ortiz, 670 N.W.2d at 792. Furthermore, any successive postconviction motion
filed by Henderson would also be barred by Nebraska’s statute of limitations.
The court finds that Martinez does not apply to excuse the procedural default,
because the ineffective assistance of trial counsel claim is lacking in merit. An
officer involved in the investigation testified that, because Henderson handled the
“murder weapons” after they had been fired, “he would have had GSR on his hands.”
(Filing No. 14-21 at CM/ECF pp. 189-90.) This evidence certainly would not have
exculpated Henderson. Thus, trial counsel’s decision not to compel gunshot residue
testing on Henderson was reasonable trial strategy.
Henderson did raise, both in his amended postconviction motion (filing no.
14-7 at CM/ECF p. 8) and in his brief on postconviction appeal (filing no. 14-12 at
CM/ECF pp. 32-33), that he was denied effective assistance of counsel because trial
counsel failed to move to compel gunshot residue testing on the swabs taken from
Kevin Washington, James Garrett, Antonio Washington, and Matthew Voss. In
rejecting this claim on postconviction appeal, the Nebraska Supreme wrote:
Henderson contends that gunshot residue swabs were taken from Voss,
Antonio Washington, and two other individuals who were present at the
scene. Henderson asserts that these swabs were never submitted for
testing and that such testing “could have implicated other suspects in
the shooting” or provided him with “alternative theories of defense.”
Evidence introduced at trial, however, demonstrated that gunshot
7 Henderson referenced trial counsel’s failure to compel gunshot residue
testing on Henderson in his brief on postconviction appeal before the Nebraska
Supreme Court. (Filing No. 14-12 at CM/ECF p. 33.) The court did not address the
argument, presumably because it was not raised in the postconviction motion.
29

Case: 4:19-cv-03022-RGK-PRSE

Document#: 33-1

Date Filed: 07/06/2020

Page 30 of 63

residue testing would not have made a difference. An officer involved
in the investigation testified that a finding of gunshot residue on a
person does not definitively show that the person had fired a gun,
because a person can also come into contact with gunshot residue by
being in the vicinity of gunfire. Because the individuals from whom
gunshot residue swabs were obtained either were victims or were
known to be at the scene, a finding of gunshot residue on them would
not have implicated them or exculpated Henderson. In light of this
testimony, the correctness of which Henderson does not dispute,
Henderson’s counsel could not have acted deficiently by not seeking
gunshot residue testing and Henderson suffered no prejudice.
(Filing No. 14-2 at CM/ECF pp. 10-11.)
Henderson contends that the Nebraska Supreme Court “made faulty fact
finding when the court ruled that testing of the G.S.R. kits would not have proved
anything and wouldn’t have helped exculpated [sic] Henderson.” (Filing No. 21 at
CM/ECF p. 15.) Henderson argues that the Nebraska Supreme Court erroneously
based its conclusion on an officer’s trial testimony that gunshot residue testing does
not prove “who did the shooting,” “just who was around.” (Id. at CM/ECF p. 16.)
Henderson alleges that the officer’s testimony was “false and not supported by any
facts,” because “[w]hen a person fires a gun that person will have more G.S.R. on
there [sic] hands and clothes than a person who was standing next to a person firing
a gun, also that person would have more G.S.R. on there [sic] hands than a person
who just picked the gun up.” (Id.)
As an initial matter, the Nebraska Supreme Court specifically stated that
Henderson did not dispute the “correctness” of the officer’s trial testimony, which
included testimony that “a finding of gunshot residue on a person does not
definitively show that the person had fired a gun, because a person can also come
into contact with gunshot residue by being in the vicinity of gunfire.” (Filing No.
14-2 at CM/ECF p. 11 (emphasis added).) The Nebraska Supreme Court’s
determination that, “[b]ecause the individuals from whom gunshot residue swabs
were obtained either were victims or were known to be at the scene, a finding of
30

Case: 4:19-cv-03022-RGK-PRSE

Document #: 33-1

Date Filed: 07/06/2020

Page 31 of 63

gunshot residue on them would not have implicated them or exculpated Henderson,”
was not based on an unreasonable determination of the facts in light of the officer’s
trial testimony. Moreover, the Nebraska Supreme Court reasonably applied
Strickland in concluding that trial counsel could not have acted deficiently by not
seeking gunshot residue testing and that Henderson suffered no prejudice from trial
counsel’s performance.
Henderson’s argument here, however, is more focused on the amount of
gunshot residue found on a person. As to that issue, the officer testified that the
“amount of residue” and “intensity of the particles” of the gunshot residue can help
determine whether an individual fired a gun or was in the vicinity of a fired gun as
opposed to just handling a fired gun. (Filing No. 14-21 at CM/ECF pp. 190, 197.)
Henderson now argues that gunshot residue testing on the swabs taken from Kevin
Washington, James Garrett, Antonio Washington, Matthew Voss, and himself would
have revealed less residue on him than the others, which would have shown that he
was not the shooter. (See Filing No. 21 at CM/ECF pp. 13, 16.) Henderson did not
present this amount-of-residue argument in the Nebraska state courts, and thus, it is
arguably procedurally defaulted. Nonetheless, the argument ignores the other
possibility that gunshot residue testing would reveal that there was more gunshot
residue on Henderson than on the other individuals. Such evidence certainly would
not have been exculpatory. Thus, trial counsel’s decision not pursue gunshot residue
testing was reasonable trial strategy and did not constitute ineffective assistance.
For all the above reasons, Henderson is not entitled to habeas relief on Claim
One, Subpart (2).
3. Subpart (3)
Henderson contends that he was denied effective assistance of counsel
because trial counsel failed to interview or call witnesses Joeanna Ball, Deonta
Marion, and Timothy Washington to testify. (Filing No. 1 at CM/ECF pp. 20-23.)

31

Case: 4:19-cv-03022-RGK-PRSE

Document #: 33-1

Date Filed: 07/06/2020

Page 32 of 63

a. Joeanna Ball
Henderson did not allege that trial counsel failed to interview or call Joeanna
Ball as a witness in his amended postconviction motion. (Filing No. 14-17 at
CM/ECF pp. 6-7.) Thus, this claim is now procedurally defaulted, not unexhausted,
because Nebraska courts would not consider a successive postconviction motion on
that claim. See Sims, 761 N.W.2d at 533; Ortiz, 670 N.W.2d at 792. Furthermore,
any successive postconviction motion filed by Henderson would also be barred by
Nebraska’s statute of limitations.
The court finds that Martinez does not apply to excuse the procedural default,
because the ineffective assistance of trial counsel claim is lacking in merit.
According to Henderson, Joeanna Ball, who did not see the shooting but was
assisting the victims at the crime scene, told the police that, just because someone at
the scene of the shooting had blood on their clothing “doesn’t mean they did the
shooting because she also had blood on her shoes as well.” (Filing No. 1 at CM/ECF
p. 20.) This testimony, however, would not have been exculpatory. Henderson
simply fails to demonstrate a reasonable probability that this testimony would have
resulted in a different outcome at trial. Accordingly, Henderson’s claim that trial
counsel was ineffective for failing to interview or call Joeanna Ball as a witness
necessarily fails.
b. Deonta Marion
Next, Henderson argues that trial counsel was ineffective for failing to
interview or call Deonta Marion as a witness. He contends that, had Marion been
called, his testimony regarding the shooters’ clothing would have “impeached” the
State’s theory that Henderson was one of the shooters. (Id. at CM/ECF p. 21.)
Henderson raised this claim in his amended postconviction motion and
subsequent appeal. In its opinion on postconviction appeal, the Nebraska Supreme
Court considered and rejected the claim as follows:
32

Case: 4:19-cv-03022-RGK-PRSE

Document #: 33-1

Date Filed: 07/06/2020

Page 33 of 63

Next, Henderson asserts that he is entitled to postconviction relief
because his trial counsel failed to call Deonta Marion. Henderson
alleged in his motion for postconviction relief that Marion gave a
statement to police regarding the shooting. Henderson attached a
document to his motion that appears to be a police report documenting
that statement. The report stated that Marion described one shooter as
wearing a ‘“white or a light-colored short-sleeve shirt’” and the other
as wearing “‘dark clothing.’” Later in the report, the author noted that
Marion had initially provided a false name to law enforcement.
Henderson argues that had Marion been called, his testimony regarding
the shooters’ clothing would have undercut the State’s theory that
Henderson was one of the shooters because Henderson was wearing a
tan “Carhartt” jacket when he was apprehended. Brief for appellant at
24.
We recently addressed two related cases in which defendants contended
that trial counsel failed to call witnesses who would have identified the
perpetrators of crimes as having different characteristics than the
defendants charged with those crimes. In State v. Newman, 300 Neb.
770, 916 N.W.2d 393 (2018), and State v. Stricklin, 300 Neb. 794, 916
N.W.2d 413 (2018), the codefendants, who were both African
American, contended that their counsel deficiently failed to call
witnesses. They claimed the witnesses would have testified that the
perpetrators were unnamed ‘“Mexicans’” or “‘Latino’s.’” State v.
Newman, 300 Neb. at 782, 916 N.W.2d at 406. Accord State v.
Stricklin, supra. We concluded that these allegations did not show a
reasonable likelihood that, absent the alleged deficiency, the outcome
at trial would have been different.
In so finding, we applied the approach that the U.S. Supreme Court set
forth in Strickland v. Washington, 466 U.S. 668, 104 S. Ct. 2052, 80
L.Ed.2d 674 (1984), to analyze prejudice:
“In making [the prejudice] determination, a court hearing
an ineffectiveness claim must consider the totality of the
evidence before the judge or jury. Some of the factual
findings will have been unaffected by the errors, and
factual findings that were affected will have been affected
in different ways. Some errors will have had a pervasive
effect on the inferences to be drawn from the evidence,
33

Case: 4:19-cv-03022-RGK-PRSE

Document #: 33-1

Date Filed: 07/06/2020

Page 34 of 63

altering the entire evidentiary picture, and some will have
had an isolated, trivial effect. Moreover, a verdict or
conclusion only weakly supported by the record is more
likely to have been affected by errors than one with
overwhelming record support. Taking the unaffected
findings as a given, and taking due account of the effect of
the errors on the remaining findings, a court making the
prejudice inquiry must ask if the defendant has met the
burden of showing that the decision reached would
reasonably likely have been different absent the errors.”
State v. Newman, 300 Neb. at 782-83, 916 N.W.2d at 407, quoting
Strickland v. Washington, supra. See, also, State v. Stricklin, supra. In
both cases, we concluded that in the context of all the evidence adduced
at trial, the omitted testimony “would not have altered the evidentiary
picture and would, at best, have had an isolated or trivial effect on the
jury’s findings.” See State v. Newman, 300 Neb. at 783, 916 N.W.2d at
407. Accord State v. Stricklin, supra.
Similarly, here, there is overwhelming evidentiary support for the
jury’s verdict, which we summarized on direct appeal:
Henderson was apprehended by police as he was running
from the scene of the incident. A person who was at the
scene had identified Henderson to a police officer as one
of the shooters. The other suspect was not apprehended.
One gun was found on Henderson’s person when he was
arrested, and a police officer saw Henderson throw another
gun under a vehicle as the officer was chasing him.
Forensic evidence presented at trial indicated that bullets
and casings found at the scene of the shootings had been
fired from the gun found on Henderson and from the gun
he was seen throwing under a vehicle. A fingerprint on the
gun found under the vehicle matched Henderson’s. In
addition, DNA testing of blood found on the clothing worn
by Henderson at the time of his arrest indicated that the
blood had come from Voss.

34

Case: 4:19-cv-03022-RGK-PRSE

Document #: 33-1

Date Filed: 07/06/2020

Page 35 of 63

The State maintained at trial that Henderson shot Voss and
[Antonio] Washington to retaliate for an assault on
Henderson’s friend, Jimmy Levering. Levering and Voss
had both been inmates at a prison in Florida, and Voss had
allegedly stabbed and punched Levering.

^MMimddMmi^opthomyad^noBMqugtedMabmemexfegmess-agQS

tfe^^^.mife®^iiiI^«»^^swaii©iin:dmtb.e^t:im©^Q&*the
s^oMi5gl^erojsattemptiiCTl^lit^n,eia:nQthier^orutsid^theaoa¥t^7h^e
^te^faioBtlii^^B^^^d^nd^hat^beAdwi^uuJ^wb^^tafebedjffiMbsgssw^

When we weigh the effect of counsel’s allegedly deficient failure to call
Marion against the remaining evidence, we conclude that there is not a
reasonable likelihood the outcome would have been different had
Marion testified. Henderson’s presence at the scene, his possession of
the weapons used in the shooting, the blood matching the DNA profile
of one of the victims on his clothing, and the evidence of his pre­
meditative intent to retaliate against someone he believed to be present
at the scene are highly suggestive of his guilt. To reach a different
conclusion, the jury would have to find that just after Henderson had
received a text message that someone who had stabbed his acquaintance
was at a party in downtown Omaha, Henderson went to such a party
where someone else shot a person who had assaulted Henderson’s
friend Levering in prison when Henderson happened to be sufficiently
nearby to get blood matching the DNA profile of the victim on his
clothes, and that Henderson somehow took possession of both guns
used in the crime and fled the scene with them. We find the likelihood
of the jury’s reaching such a conclusion to be exceedingly low.
Our prejudice analysis is also informed by the fact that Henderson
relied on another account of the shooters’ attire at trial but was unable
to convince the jury of his innocence. The evidence showed that
Henderson was apprehended wearing a tan Carhartt jacket that had a
hood. However, an eyewitness, Charles Bird, testified that one shooter
wore a light-colored or gray “hoodie” and the other wore a dark-colored
hoodie. Henderson’s counsel highlighted Bird’s testimony during
35

Case: 4:19-cv-03022-RGK-PRSE

Document #: 33-1

Date Filed: 07/06/2020

Page 36 of 63

closing arguments, noting that the witness did not describe a tan jacket
like Henderson wore that night. Even so, the jury found Henderson
guilty.
The State points to Henderson’s reliance on Bird’s testimony and
contends that it shows that Marion’s testimony would not have made a
difference. In this case, we agree. We can envision a circumstance in
which testimony of a purported eyewitness that the perpetrator of a
crime lacked certain characteristics of the defendant might corroborate
similar testimony of another purported eyewitness and thus
meaningfully assist the defense. However, for multiple reasons, we do
not believe Marion’s testimony would have had that effect here. First,
it is not clear that Marion’s testimony would have corroborated Bird’s:
Bird identified the shooters as wearing hoodies, and Marion identified
one of the shooters as wearing a short-sleeved shirt. And even if the
chance that Marion’s testimony would undercut rather than corroborate
Bird’s is set to the side, the testimony would not necessarily have been
exculpatory, because there was evidence that Henderson was wearing
a white short-sleeved shirt under his jacket. Finally, there is still the
overwhelming evidence of Henderson’s guilt set forth above. Given the
nature of this evidence, we are convinced that the jury would have
reacted to the testimony Henderson claims Marion would have given
the same way it did to the testimony of Bird, which Henderson relied
on at trial.
Because Marion’s testimony would not have meaningfully altered the
evidentiary picture and any impact on the jury’s findings would have
been isolated and trivial, we hold that the district court did not err in
denying this claim of ineffective assistance of counsel without an
evidentiary hearing.
(Filing No. 14-2 at CM/ECF pp. 1-9.)
The court must grant substantial deference to the Nebraska Supreme Court’s
decision on this issue. The court has carefully reviewed the record in this matter and
finds that the Nebraska Supreme Court’s decision is not “based on an unreasonable
determination of the facts in light of the evidence presented in the State court
proceeding.” 28 U.S.C. § 2254(d)(2). The Nebraska Supreme Court reviewed all the
36

Case: 4:19-cv-03022-RGK-PRSE

Document #: 33-1

Date Filed: 07/06/2020

Page 37 of 63

evidence and determined, based on Strickland, that Henderson was not prejudiced
by trial counsel’s failure to call Deonta Marion as a witness. Henderson has not
established that the Nebraska Supreme Court’s decision on this issue was contrary
to, or involved an unreasonable application of, clearly established federal law as
determined by the United States Supreme Court. Thus, Henderson is not entitled to
habeas relief on this claim.
c. Timothy Washington
Although Henderson’s ineffective assistance of counsel claim regarding trial
counsel’s failure to interview or call Timothy Washington as a witness was raised in
his amended postconviction motion and subsequent appeal, the Nebraska Supreme
Court did not reach the merits of this claim because Henderson’s amended
postconviction motion did not include specific allegations as to the testimony
Washington would have given if called at trial. (Filing No. 14-2 at CM/ECF pp. 67.) The Nebraska Supreme Court wrote:
First, Henderson claims his trial counsel should have called Timothy
Washington. Henderson argues that had Timothy Washington been
called to testify, he would have rebutted the testimony of a witness
called by the State, Vasili Petrihos. At trial, Petrihos testified that a
young black man, who was later apprehended and identified as
Henderson, was “tensed up and all hyped up,” “huffing and puffing,”
and “getting aggravated” and appeared “ready to fight” near the
shooting site immediately prior to the shooting.
In his motion for postconviction relief, however, Henderson did not
reference Petrihos or his testimony. Henderson asserted only that
Timothy Washington was willing to testify about Henderson’s
“demeanor and the direction . . . Henderson had been headed . . .
minutes before the shooting” and that such testimony could have
impeached the testimony of other unspecified witnesses as to
Henderson’s whereabouts, demeanor, and actions in the minutes before
the shooting. The motion did not explain what Timothy Washington
would have testified regarding Henderson’s location, demeanor, or
direction.
37

Case: 4:19-cv-03022-RGK-PRSE

Document #: 33-1

Date Filed: 07/06/2020

Page 38 of 63

The lack of explanation as to what Timothy Washington would have
testified is relevant because in a motion for postconviction relief, a
defendant is required to specifically allege what the testimony of
potential witnesses would have been if they had been called. See State
v. Abdullah, 289 Neb. 123, 853 N.W.2d 858 (2014). Absent specific
allegations, a motion for postconviction relief is subject to dismissal
without an evidentiary hearing. See id. Because Henderson’s motion
did not describe Timothy Washington’s alleged testimony with
sufficient specificity, an evidentiary hearing was not warranted.
(Id. at CM/ECF t>p. 6-7.)
The Nebraska Supreme Court’s decision not to consider the merits of the
claim was based on a firmly established state procedural rule. That is, in Nebraska,
a petitioner is required to specifically allege in a motion for postconviction relief
what the testimony of potential witnesses would have been if they had been called
in order to avoid dismissal without an evidentiary hearing. See State v. Abdullah,
853 N.W.2d 858, 867 (Neb. 2014); State v. Marks, 835 N.W.2d 656 (Neb. 2013);
State v. McGhee, 787 N.W.2d 700 (Neb. 2010); State v. Davlin, 766 N.W.2d 370
(Neb. 2009). Therefore, this portion of Claim One, Subpart (3), is procedurally
defaulted pursuant to an independent and adequate state procedural rule. See Hunt
v. Houston, 563 F.3d 695, 703 (8th Cir. 2009) (“Federal courts generally will not
review claims that a state court has refused to consider because of the petitioner’s
failure to satisfy a state procedural requirement”); Shaddy v. Clarke, 890 F.2d 1016,
1018 (8th Cir. 1989) (“[Ojnly if the state court issues a ‘plain statement’ that it is
rejecting petitioner’s federal claim on state procedural grounds will federal habeas
courts be precluded from reaching the merits of the claim.”). The claim is now
procedurally defaulted, not unexhausted, because the Nebraska courts would not
entertain a successive postconviction motion based on that claim. Furthermore, any
successive postconviction motion filed by Henderson would also be barred by
Nebraska’s statute of limitations.
Alternatively, the court finds the ineffective assistance of trial counsel claim
without merit. Henderson does not set out how long before the shooting Timothy
38

Case: 4:19-cv-03022-RGK-PRSE

Document #: 33-1

Date Filed: 07/06/2020

Page 39 of 63

Washington saw Henderson or how far from the scene of the shooting Timothy
Washington encountered Henderson. Therefore, Henderson fails to show how
Timothy Washington’s testimony would have meaningfully altered the evidentiary
picture and changed the outcome of the trial, particularly with regard to impeaching
the testimony of Vasili Petrihos. As the state district court noted, Vasili Petrihos’
potential bias “was brought out in the evidence and the jury was allowed to make its
own determination as to his bias and credibility.” (Filing No. 14-17 at CM/ECF p.
71.) Henderson is not entitled to habeas relief on this claim.
4. Subpart (4)
Henderson alleges that trial counsel was ineffective for failing to request an
V
instruction on a co-conspirator rule and its application to hearsay exceptions. (Filing
No. 1 at CM/ECF p. 44.)
Henderson did not raise this claim in his amended postconviction motion.
Thus, the claim is now procedurally defaulted, not unexhausted, because Nebraska
courts would not consider a successive postconviction motion on that claim. See
Sims, 761 N.W.2d at 533; Ortiz, 670 N.W.2d at 792. Furthermore, any successive
postconviction motion filed by Henderson would also be barred by Nebraska’s
statute of limitations.
The court finds that Maninez^oe^nof^pply to excuse the procedural default,
because the ineffective assistance of trial counsel claim is lacking in merit. 8
8

Henderson also asserts that trial counsel’s failure to raise this claim “on
appeal” should be scrutinized under Flanders v. Graves, 299 F.3d 974 (8th Cir.
2002). (Filing No. 21 at CM/ECF p. 21.) Flanders involved a time-barred habeas
petition and held that to make a viable claim that 28 U.S.C. § 2244(d)(1) should be
equitably tolled based on actual innocence, petitioner would have to show some
action or inaction on the part of State that prevented him from discovering relevant
facts in a timely fashion, or that a reasonably diligent petitioner could not have
discovered facts in time to file a petition within the limitation period. Id. at 976-78.
Respondents do not argue that Henderson’s habeas petition is time barred. Thus,
39

Case: 4:19-cv-03022-RGK-PRSE

Document #: 33-1

Date Filed: 07/06/2020

Page 40 of 63

Henderson filed a motion in limine prior to trial seeking to preclude the State from
introducing evidence of the content of text messages found on the cell phone because
the text messages were inadmissible hearsay. (Filing No. 14-1 at CM/ECF p. 17:
Filing No. 14-16 at CM/ECF pp. 56-57.) The trial court overruled the motion in
limine based on the State’s argument that the evidence was not being offered for the
truth of the matters asserted but instead to show the impact of the messages on
Henderson’s state of mind, which was relevant to proving premeditation with respect
to the charge of the first degree murder of Voss. (Filing No. 14-1 at CM/ECF p. 17;
Filing No. 14-18 at CM/ECF pp. 117-19.) On the first day of trial, the State argued
that the text messages were also admissible in the alternative under the co­
conspirator exception to hearsay. (Filing No. 14-18 at CM/ECF pp. 141-42.) The
trial court stated that its “ruling was the same,” noting that it had overruled
Henderson’s motion in limine “for the reasons we all discussed prior.” (Id. at
CM/ECF p. 142.) Henderson later renewed his hearsay objections, and the State
argued the admissibility of the text messages under the two alternative grounds.
(Filing No. 14-20 at CM/ECF pp. 89-94.) The trial court overruled the objection,
stating, “We talked about it on the record the other day. I’ll overrule your objection.”
(Id. at CM/ECF pp. 93-94.) The trial court declined to give Henderson’s proposed
limiting instruction (filing no. 14-16 at CM/ECF p. 99) that the text messages were
offered to show Henderson’s state of mind and not for the truth of the matter
asserted. (Filing No. 14-22 at CM/ECF pp. 123-30.) It was at this time that the trial
court found the text messages fell under the co-conspirator exception. (Id. at
CM/ECF p. 130.) During closing arguments, the State argued that the text messages
helped to show that Henderson’s actions were premeditated and deliberate. (Id. at
CM/ECF pp. 135. 152-54.)
On direct appeal, the Nebraska Supreme Court concluded that the text
messages “were not admitted for the truth of the statements contained therein but

Flanders is inapplicable. To the extent Henderson relies on Flanders to excuse any
other defaulted claims, his reliance is similarly misplaced.
40

Case: 4:19-cv-03022-RGK-PRSE

Document #: 33-1

Date Filed: 07/06/2020

Page 41 of 63

instead for the purpose of showing their effect on Henderson.” (Filing No. 14-1 at
CM/ECF v. 17.) The court wrote:

Ltl7

M&

«

m

©is

ism
dp^miMds^tediiMfiiiMElWtoieAait^Maaisirtteigmd'eiioemgas
F)V

ifndf

m

m

(Id. at CM/ECF pp. 17-18.)
In light of the Nebraska Supreme Court’s conclusion that the text messages
were not admitted for the truth of the matter asserted, trial counsel could not have
been ineffective for any failure to request an instruction on a co-conspirator rule and
its application to hearsay exceptions. Accordingly, Henderson is not entitled to
habeas relief on Claim One, Subpart (4).
5. Subpart (5)
Henderson asserts that he was denied effective assistance of counsel because
trial counsel failed to object to Ramone Narvaez’s testimony based on irrelevance
until after his testimony was complete. (Filing No. 1 at CM/ECF pp. 52-53.)
t

Henderson raised this claim in his amended postconviction motion and
subsequent appeal. In its opinion on postconviction appeal, the Nebraska Supreme
Court considered and rejected the claim as follows:
41

Case: 4:19-cv-03022-RGK-PRSE

Document #: 33-1

Date Filed: 07/06/2020

Page 42 of 63

Narvaez, a correctional officer from a federal penitentiary in Florida,
testified that in 2009, he witnessed an altercation between Levering and
an inmate named “Voss.” As noted above, the State contended that
Henderson shot Voss and Antonio Washington to retaliate for an assault
on Henderson’s friend, Levering. Henderson argues his trial counsel
provided ineffective assistance by failing to object to the Narvaez
testimony on relevance grounds until after it was complete ....
Henderson cannot establish that he received ineffective assistance of
counsel regarding the Narvaez testimony. Contrary to Henderson’s
assertion, the relevance and allegedly prejudicial nature of the Narvaez
testimony was addressed on direct appeal. We specifically stated that
the testimony was “relevant to the State’s case and was not unfairly
prejudicial.” State v. Henderson, 289 Neb. 271, 301, 854 N.W.2d 616,
640 (2014). Because we have already rejected the evidentiary
objections that Henderson contends his counsel should have raised, ...
we need not revisit whether his trial counsel was ineffective in not
objecting on relevance grounds during Narvaez’ testimony. See State
v. Thorpe, 290 Neb. 149, 858 N.W.2d 880 (2015).
(Filing No. 14-2 at CM/ECF p. 15.)
The Nebraska Supreme Court determined on direct appeal that “Narvaez’
testimony was relevant to the State’s case and was not unfairly prejudicial” because:
Although Narvaez did not know the first name of the person he
identified as “Voss,” another witness, Perna, testified that he had visited
“Matthew Voss” in the prison in Florida, and Perna identified the
murder victim in this case as the “Voss” he visited in Florida. Perna
also testified that Levering was discussed during his conversation with
“Voss” in Florida.
(Filing No. 14-1 at CM/ECF p. 21.)
The court finds that the Nebraska Supreme Court reasonably applied
Strickland in concluding that Henderson failed to establish that he received
ineffective assistance of counsel regarding Narvaez’s testimony. Indeed, any
42

Case: 4:19-cv-03022-RGK-PRSE

Document #: 33-1

Date Filed: 07/06/2020

Page 43 of 63

relevancy objection made during Narvaez’s testimony would have been without
merit. Thus, applying the deferential standards required by both Strickland and by
28 U.S.C. § 2254(d), the court finds nothing to indicate that the Nebraska Supreme
Court’s ruling was based on an unreasonable determination of the facts in light of
the evidence or was contrary to, or involved an unreasonable application of, clearly
established Federal law. Thus, Claim One, Subpart (5), is denied.
6. Subpart (6)
Henderson argues that he was denied effective assistance of counsel because
trial counsel (1) failed to impeach Officer Sarka’s testimony, (2) failed to introduce
audio and video evidence from Sarka’s cruiser to the jury, and (3) failed to move to
strike the portion of Sarka’s testimony “identifying the defendant as the shooter from
what someone else told him.” (Filing NoT 1 at CM/ECF pp. 56-57.)
Henderson raised the first two allegations in his amended postconviction
motion but not the third allegation. (Filing No. 14-17 at CM/ECF pp. 17-18.) Thus,
the third allegation is procedurally defaulted for failure to raise it in his amended
postconviction motion. The first two allegations are procedurally defaulted because
Henderson did not specifically assign and argue them in his brief on postconviction
appeal before the Nebraska Supreme Court (filing no. 14-12), contrary to a firmly
established and regularly followed state practice. See Filholm, 848 N.W.2d 571.
Henderson cannot now raise any of these claims in a successive state postconviction
motion, and the claims would also be barred by Nebraska’s statute of limitations on
postconviction motions.
The court finds that Henderson cannot rely on Martinez to save the procedural
default of these claims. With regard to the first two allegations, even if Martinez
does apply generally in Nebraska, the court does not believe that it applies where
ineffective assistance of trial counsel claims were litigated in an initial-review
collateral proceeding, but not preserved on appeal. See Arnold v. Dormire, 675 F.3d
1082, 1086-88 (8th Cir. 2012) (“The Court made clear that the holding in Martinez
43

Case: 4:19-cv-03022-RGK-PRSE

Document #: 33-1

Date Filed: 07/06/2020

Page 44 of 63

did not ‘concern attorney errors in other kinds of proceedings, including appeals
from initial-review collateral proceedings . . .
(citing and quoting Martinez, 1
U.S. at 16). With regard to the third allegation, which was not specifically raised in
the amended postconviction motion, Henderson fails to show that the claim is
“substantial.” Henderson does not explain on what grounds trial counsel should have
moved to strike Sarka’s testimony. Moreover, Henderson fails to show that, but for
trial counsel’s failure to move to strike Sarka’s testimony, the result of the
proceeding would reasonably likely have been different. The other evidence,
including “Henderson’s presence at the scene, his possession of the weapons used
in the shooting, the blood matching the DNA profile of one of the victims on his
clothing, and the evidence of his pre-meditative intent to retaliate against someone
he believed to be present at the scene,” was “highly suggestive of his guilt” and
supports his convictions. (Filing No. 14-2 at CM/ECF p. 8.) Because this claim is
lacking merit, Martinez does not apply to excuse its procedural default.
Accordingly, Henderson is not entitled to habeas relief on Claim One, Subpart
(6).
B. Claim Two
Claim Two consists of multiple allegations of ineffective assistance of trial
and appellate counsel.
1. Subpart (1)
Henderson alleges that he was denied effective assistance of counsel because
trial and appellate counsel failed to argue State v. Tompkins, which is based on
United States v. Hahn, 922 F.2d 243 (5th Cir. 1991), in response to the State raising
the good faith exception to the exclusionary rule for the first time on appeal. (Filing
No. 1 at CM/ECF pp. 24-25.)

44

Case: 4:19-cv-03022-RGK-PRSE

Document #: 33-1

Date Filed: 07/06/2020

Page 45 of 63

As an initial matter, this claim is restricted to the actions of Henderson’s
counsel on appeal because the alleged ineffective performance could not have
occurred until direct appeal. Henderson raised the ineffective assistance of appellate
counsel allegation in his amended postconviction motion and subsequent appeal.
The Nebraska Supreme Court considered and rejected the claim as follows:
Finally, Henderson alleges that his appellate counsel was ineffective for
not arguing that our opinion in State v. Tompkins, 272 Neb. 547, 723
N.W.2d 344 (2006), modified on denial of rehearing 272 Neb. 865,727
N.W.2d 423 (2007), precluded us from finding, as argued by the State
on direct appeal, that text messages from the cell phone found on
Henderson were admissible under the good faith exception to the
exclusionary rule. Henderson contends that the State did not raise the
good faith exception at trial and that as a result, Tompkins precluded the
State from raising it on appeal.
It is not entirely clear that the State did not raise the good faith exception
to the trial court in some fashion. Although the State cannot point to
any indication in the record that it did, we note that the record does
show that Henderson’s counsel argued at trial that the good faith
exception did not apply. At the very least, then, Henderson’s counsel
was aware of the potential applicability of the exception and took the
opportunity to argue against it.
In any event, we do not need to determine whether the State actually
raised the good faith exception in the trial court in order to resolve this
assignment of error. In State v. Tompkins, supra, the sole issue on
appeal was whether an appellate court may consider the good faith
exception sua sponte. We concluded that it may not, reasoning that if
the court finds the exception applies on the court’s own initiative, the
defendant is given no chance to make arguments to the contrary.
Tompkins thus does not answer the question of whether the State may
raise the good faith exception for the first time on appeal.
In Tompkins, we did cite U.S. v. Hahn, 922 F.2d 243 (5th Cir. 1991), a
case in which a federal appellate court declined to apply the exception
because the prosecution had not raised the issue before the trial court.
Henderson seems to contend that if his appellate counsel had cited
Tompkins, we would have, in reliance on Hahn, extended Tompkins to
45

Case: 4:19-cv-03022-RGK-PRSE

Document #: 33-1

Date Filed: 07/06/2020

Page 46 of 63

say that we could not consider the good faith exception because it was
not raised at trial. But in fact, Hahn itself did not categorically hold that
the prosecution could never raise the good faith exception for the first
time on appeal. Rather, the court pointed out that the defendant had “not
had a fair opportunity to factually respond” to the assertion of the good
faith exception, and because of that and other reasons unique to that
case, “considerations of fairness and the orderly administration of
justice tip[ped] the scales in favor” of not considering the good faith
exception. U.S. v. Hahn, 922 F.2d at 248.
In this case, Henderson cannot claim that he did not have an opportunity
to factually address the potential applicability of the good faith
exception. As noted above, his counsel expressly argued at trial that the
exception did not apply. Thus, even assuming for the sake of argument
that we could have been convinced to follow Hahn, it would not have
precluded our consideration of the good faith exception in Henderson’s
direct appeal. Because the result of Henderson’s direct appeal would
have been no different had his counsel cited Tompkins, we find no merit
to this assignment of error.
(Filing No. 14-2 at CM/ECF pp. 17-18.)
The Nebraska Supreme Court determined, based on Strickland, that
Henderson was not prejudiced by appellate counsel’s failure to cite Tompkins on
direct appeal. In reaching this conclusion, the Nebraska Supreme analyzed Tompkins
and Hahn and determined that neither case would have precluded the court from
considering the good faith exception on direct appeal, and thus, the result of the
direct appeal would not have been different had appellate counsel cited Tompkins.
Henderson has not established that the Nebraska Supreme Court’s decision on this
issue was based on an unreasonable determination of the facts in light of the evidence
or that it was contrary to, or involved an unreasonable application of, clearly
established federal law as determined by the United States Supreme Court. Thus,
Henderson is not entitled to relief on this claim.

46

Case: 4:19-cv-03022-RGK-PRSE

Document #: 33-1

Date Filed: 07/06/2020

Page 47 of 63

2. Subpart (2)
Henderson next claims that he was denied effective assistance of counsel
because trial and appellate counsel failed to assign error to the trial court’s refusal to
give a limiting instruction regarding the cell phone text messages. (Filing No. 1 at
CM/ECFp. 28.)
Like Subpart (1), this claim is limited to Henderson’s counsel’s performance
on direct appeal, not at trial. Henderson raised the ineffective assistance of appellate
counsel allegation in his amended postconviction motion and subsequent appeal.
The Nebraska Supreme Court considered and rejected the claim as follows:
At trial, Henderson’s counsel proposed the following instruction
regarding the text messages:
During this trial the Court admitted some evidence that
was received for a specific limited purpose. Specifically,
the incoming text messages received into evidence from
the cell phone of [Henderson were] offered to show
[Henderson’s] state of mind. The content of the text
messages was not received for the purpose of showing the
truth of the matter asserted in the incoming text messages.
You may consider the evidence only for the limited
purpose for which it was received and for no other
purpose.
The trial court declined to give this instruction. On direct appeal, we
determined that the text messages were admitted not for the truth of the
statements contained therein but instead for the purpose of showing
their effect on Henderson and were thus not hearsay. We did not address
the limiting instruction because Henderson’s appellate counsel did not
properly raise the issue on direct appeal. Henderson alleged in his
postconviction motion that his appellate counsel was deficient in failing
to do so and now alleges on appeal that the district court erred in
denying him an evidentiary hearing to address the issue.

47

Case: 4:19-cv-03022-RGK-PRSE

Document#: 33-1

Date Filed: 07/06/2020

Page 48 of 63

We conclude that Henderson was not entitled to an evidentiary hearing
on this matter. Even if Henderson’s appellate counsel had raised the
limiting instruction on appeal, it would not have been grounds for a
reversal of his convictions. We perceive little danger that the jury
improperly deliberated by considering the text messages for the truth of
the matter asserted. The facts asserted in the messages were that an
individual had stabbed “Jb” and that the individual was in the same area
as the author of the text messages. Whether those facts were true was
immaterial. Regardless of whether “Jb” had actually been stabbed,
whether the suspected individual had done it, or whether that person
was in the area described, the text messages would have suggested that
Henderson went to the area of the shootings with the intent of retaliating
against the individual who he believed stabbed his acquaintance. And
this was the nonhearsay purpose for which they were admitted. No
limiting instruction was necessary to prevent the jury from considering
the truth of the statements in the text messages.
(Filing No. 14-2 at CM/ECF pp. 13-14.)
The court must grant substantial deference to the Nebraska Supreme Court’s
decision on this issue. The Nebraska Supreme Court reviewed the text messages and
determined, based on Strickland, that Henderson was not prejudiced by counsel’s
failure to assign and argue on direct appeal the trial court’s error in refusing to give
a limiting instruction regarding the cell phone text messages. Henderson has not
established that the Nebraska Supreme Court’s decision on this issue was based on
an unreasonable determination of the facts in light of the evidence or that it was
contrary to, or involved an unreasonable application of, clearly established federal
law as determined by the United States Supreme Court. Thus, Claim Two, Subpart
(2), is denied.
3. Subpart (3)
Henderson asserts that he was denied effective assistance of counsel because
trial and appellate counsel failed to object or assign error to photos of an individual

48

Case: 4:19-cv-03022-RGK-PRSE

Document #: 33-1

Date Filed: 07/06/2020

Page 49 of 63

believed to be Jimmy Levering flashing gang signs being shown to the jury. (Filing
No. 1 at CM/ECF pp. 30-31.)
Henderson did not raise the ineffective assistance of appellate counsel claim
in his amended postconviction motion. (Filing No. 14-17 at CM/ECF pp. 34-35.)
Thus, this claim is now procedurally defaulted, not unexhausted, because Nebraska
courts would not consider a successive postconviction motion on that claim. See
Sims, 761 N.W.2d at 533; Ortiz, 670 N.W.2d at 792. Furthermore, any successive
postconviction motion filed by Henderson would also be barred by Nebraska’s
statute of limitations. Henderson has not demonstrated cause or prejudice for the
default. Henderson cannot rely on Martinez to excuse the procedural default because
Martinez does not apply to defaulted ineffective assistance of appellate counsel
claims. Davila v. Davis, 137 S. Ct. 2058, 2063 (2017); Dansby v. Hobbs, 766 F.3d
809, 833 (8th Cir. 2014). Moreover, as discussed below, Henderson has not shown
that he is actually (meaning factually) innocent or that some miscarriage of justice
took place. The court has carefully examined the record; the evidence was sufficient
to convict Henderson beyond a reasonable doubt.
Henderson did raise the ineffective assistance of trial counsel allegation in his
amended postconviction motion and subsequent appeal. The Nebraska Supreme
Court considered and rejected the claim as follows:
Henderson also contends his trial counsel was deficient for not
objecting to the admission of pictures of Levering as unfairly
prejudicial. According to Henderson, Levering is making gang-related
hand gestures in the pictures. However, there was no testimony that
Levering’s hand gestures were gang related. Furthermore, on direct
appeal, we did not consider the photograph itself to be evidence of gang
affiliation; we determined that other than the “‘infamous gang
member’” reference, “the State did not present . . . evidence of gang
affiliations.” Id. at 298, 299, 854 N.W.2d at 638, 639. Having already
decided that the photograph of Levering does not constitute evidence
of gang affiliation, we will not revisit the issue on postconviction
review. See State v. Thorpe, 290 Neb. 149, 156, 858 N.W.2d 880, 887
(2015) (“[a] motion for postconviction relief cannot be used to secure
49

Case: 4:19-cv-03022-RGK-PRSE

Document #: 33-1

Date Filed: 07/06/2020

Page 50 of 63

review of issues which were or could have been litigated on direct
appeal, no matter how those issues may be phrased or rephrased”).
(Filing No. 14-2 at CM/ECF pp. 12-13.)
Without additional testimony, it is pure speculation that Levering’s hand
gestures in the photographs are gang related. (See Filing No. 14-20 at CM/ECF pp.
85-88; Filing No. 14-23 at CM/ECF pp. 56-57.) Relying on its decision on direct
appeal that the photograph of Levering did not constitute evidence of gang
affiliation, the Nebraska Supreme Court rejected Henderson’s ineffective assistance
of counsel claim. Henderson has not established that the Nebraska Supreme Court’s
resolution of this claim was based on an unreasonable determination of the facts in
light of the evidence or that it was contrary to, or involved an unreasonable
application of, clearly established federal law as determined by the United States
Supreme Court.9 Accordingly, Henderson is not entitled to habeas relief on Claim
Two, Subpart (3).
4. Subpart (4)
Henderson alleges that he was denied effective assistance of counsel because
trial and appellate counsel failed to object or assign error to the State showing the
jury a photo of a coat worn by Henderson the night of his arrest and saying the coat
had bloodstains on it. (Filing No. 1 at CM/ECF pp. 60-61.)

9 Henderson contends in his response brief that the Nebraska Supreme Court’s
decision was contrary to Dawson v. Delaware, 503 U.S. 159 (1992). (Filing No. 21
at CM/ECF pp. 37-38.) In Dawson, the United States Supreme Court held that “[a]
defendant’s membership in a gang cannot be raised as bad character evidence in the
penalty phase of a capital proceeding when the evidence is not relevant to the rebuttal
of any specific mitigating evidence. 503 U.S. at 165-69. It is unclear how Dawson
is applicable here. The Nebraska Supreme Court determined that the photograph of
Levering did not constitute evidence of gang affiliation. Nor was this evidence
introduced in the penalty phase of a capital proceeding.
50

Case: 4:19-cv-03022-RGK-PRSE

Document #: 33-1

Date Filed: 07/06/2020

Page 51 of 63

Henderson raised both ineffective assistance of counsel claims in his amended
postconviction motion (filing no. 14-17 at CM/ECF p. 14), but he did not raise the
ineffective assistance of appellate counsel claim on postconviction appeal. As a
result, Henderson has not invoked one complete round of Nebraska’s established
appellate review process as it relates to that claim. The claim is now procedurally
defaulted, not unexhausted, because the Nebraska courts would not entertain a
successive postconviction motion based on that claim. Furthermore, any successive
postconviction motion filed by Henderson would also be barred by Nebraska’s
statute of limitations. Henderson cannot rely on Martinez to excuse the procedural
default because Martinez does not apply to defaulted ineffective assistance of
appellate counsel claims. Davila, 137 S. Ct. at 2063; Dansby, 766 F.3d at 833.
Moreover, as discussed below, Henderson has not shown that he is actually (meaning
factually) innocent or that some miscarriage of justice took place. The court has
carefully examined the record; the evidence was sufficient to convict Henderson
beyond a reasonable doubt.
Henderson did raise the ineffective assistance of trial counsel claim on
postconviction appeal, and the Nebraska Supreme Court resolved the claim on the
merits. The court wrote:
Photographs of a coat were received at trial without objection.
Testimony at trial established that the coat in the photographs was the
Carhartt jacket worn by Henderson when police apprehended him. The
detective who identified the photographs testified without objection
that the coat had blood on it. DNA testing was not performed on this
blood, but as noted above, DNA testing showed that Voss’ blood was
on Henderson’s shirt and shoes.
Henderson asserts his counsel was deficient in failing to make
authentication or prejudice objections to the admission of photographs
of the coat. He noted that no evidence was presented that the blood on
the coat was ever tested and matched to either victim. Henderson
claimed that allowing the jury to see photographs of “an untested and
supposedly blood-stained article of clothing” denied him a fair trial.
51

Case: 4:19-cv-03022-RGK-PRSE

Document #: 33-1

Date Filed: 07/06/2020

Page 52 of 63

We fail to see how testimony that there was blood on Henderson’s
jacket prejudiced Henderson’s defense. Henderson conceded that he
was at the scene of the shootings. In addition, Voss’ blood was found
on Henderson’s shirt and shoes. Given evidence that Henderson was
not only present at the scene but also sufficiently close to Voss to get
Voss’ blood on his clothing, we do not believe additional testimony
suggesting there was blood on his coat “altered the evidentiary picture.”
See State v. Newman, 300 Neb. 770,783, 916 N.W.2d 393,407 (2018).
Accordingly, the district court did not err by denying this claim without
an evidentiary hearing.
(Filing No. 14-2 at CM/ECF p. 16.)
The court finds that the Nebraska Supreme Court reasonably applied
Strickland in concluding that Henderson had not demonstrated prejudfde from trial
counsel’s failure to object to the admission of photographs of the coat and the State
commenting that the coat had bloodstains on it. Thus, applying the deferential
standards required by both Strickland and 28 U.S.C. § 2254(d), the court finds that
the Nebraska Supreme Court’s ruling on this issue was not based on an unreasonable
determination of the facts in light of the evidence or that it was contrary to, or
involved an unreasonable application of, clearly established federal law.
Accordingly, Henderson is not entitled to habeas relief on Claim Two, Subpart (4).
5. Subpart (5)
Henderson next argues that he was denied effective assistance of counsel
because trial and appellate counsel failed to request an attempted manslaughter
instruction or assign error to the instruction not being given. (Filing No. 1 at
CM/ECFpp. 64-65.)
Henderson raised both ineffective assistance of counsel claims in his amended
postconviction motion (filing no. 14-17 at CM/ECF p. 13), but he did not raise the
ineffective assistance of appellate counsel claim on postconviction appeal. As a
result, Henderson has not invoked one complete round of Nebraska’s established
52

Case: 4:19-cv-03022-RGK-PRSE

Document #: 33-1

Date Filed: 07/06/2020

Page 53 of 63

appellate review process as it relates to that claim. The claim is now procedurally
defaulted, not unexhausted, because the Nebraska courts would not entertain a
successive postconviction motion based on that claim. Furthermore, any successive
postconviction motion filed by Henderson would also be barred by Nebraska’s
statute of limitations. Henderson cannot rely on Martinez to excuse the procedural
default because Martinez does not apply to defaulted ineffective assistance of
appellate counsel claims. Davila, 137 S. Ct. at 2063; Dansby, 766 F.3d at 833.
Moreover, as discussed below, Henderson has not shown that he is actually (meaning
factually) innocent or that some miscarriage of justice took place. The court has
carefully examined the record; the evidence was sufficient to convict Henderson
beyond a reasonable doubt.
Henderson did raise the ineffective assistance of trial counsel claim on
postconviction appeal, and the Nebraska Supreme Court resolved the claim as
follows:
Henderson was charged and convicted of the attempted first degree
murder of Antonio Washington. He claims his trial counsel was
ineffective in not requesting lesser-included offense instructions on that
charge. But, in fact, the trial court did instruct the jury on the elements
of second degree murder and informed the jury that it could find
Henderson guilty of first degree murder or second degree murder or
find him not guilty. Furthermore, Henderson did not identify any other
lesser-included offenses in his postconviction motion or explain why
the result of the proceeding would have been different had the jury been
instructed on those offenses. Because Henderson’s allegations were not
sufficiently specific for the district court to make a determination as to
whether an evidentiary hearing was required, the district court did not
err in denying Henderson’s claim without an evidentiary hearing. See
State v. Haynes, 299 Neb. 249, 908 N.W.2d 40 (2018).
(Filing No. 14-2 at CM/ECF p. 16.)
Henderson argues that the Nebraska Supreme Court erred when it found that
“he did not identify any other lesser included offense[s].” (Filing No. 21 at CM/ECF
53

Case: 4:19-cv-03022-RGK-PRSE

Document #: 33-1

Date Filed: 07/06/2020

Page 54 of 63

p. 40.) He then states that in his “brief to the courts, [he] asserted he was entitled to
the lesser-included offense of attempted manslaughter.” (/dj Henderson
misconstrues the Nebraska Supreme Court’s finding, which was that he failed to
identify any lesser included offense in his postconviction motion; the court was not
referring to Henderson’s brief on postconviction appeal. The state district court,
applying the Strickland standard, concluded that “the fact that the jury convicted
[Henderson] of Attempted Murder [in the first degree] establishes the jury would not
have moved to a lesser included offense and therefore, [Henderson] did not suffer
any prejudice.” (Filing No. 14-17 at CM/ECF p. 74.) Cf. State v. Alarcon-Chavez,
821 N.W.2d 359, 368-69 (Neb. 2012) (when a jury is instructed on first and second
degree murder and the defendant is found guilty of first degree murder, any error in
the instruction for manslaughter or any improper failure to instruct the jury on
manslaughter does not require reversal). Henderson has not established that the
Nebraska state courts’ decisions were based on unreasonable determinations of the
facts in light of the evidence or that they were contrary to, or involved unreasonable
applications of, clearly established federal law as determined by the United States
Supreme Court. Accordingly, Claim Two, Subpart (5), is denied.
C. Claim Three
In Claim Three, Henderson asserts that he was denied a fair trial due to
prosecutorial misconduct, omission of jury instructions, and improper admission of
evidence.
The court will briefly discuss the relevant federal law so that it may apply it
later in a summary fashion as it reviews Henderson’s claims.
First, a habeas petition will be granted for prosecutorial misconduct only when
the misconduct “so infected the trial with unfairness as to make the resulting
conviction a denial of due process.” Darden v. Wainwright, All U.S. 168, 171
(1986) (quoting Donnelly v. DeChristoforo, 416 U.S. 637,643 (1974)). To constitute
a due process violation, the prosecutorial misconduct must be “of sufficient
54

Case: 4:19-cv-03022-RGK-PRSE

Document #: 33-1

Date Filed: 07/06/2020

Page 55 of 63

significance to result in the denial of the defendant’s right to a fair trial.” Greer v.
Miller, 485 U.S. 756, 765 (1987) (quoting United States v. Bagley, 473 U.S. 667
(1985)). “Under this standard, a petitioner must show that there is a reasonable
probability that the error complained of affected the outcome of the trial—i.e., that
absent the alleged impropriety, the verdict probably would have been different.”
Kellogg v. Skon, 176 F.3d 447, 451 (8th Cir. 1999).
Second, jury instructions generally do not form a basis for habeas corpus
relief. Williams v. Lockhart, 736 F.2d 1264, 1267 (8th Cir. 1984); Dietz v. Solem,
640 F.2d 126, 130 (8th Cir. 1981); Brouillette v. Wood, 636 F.2d 215, 218 (8th Cir.
1980), cert, denied, 450 U.S. 1044 (1981). Habeas relief is available when a
petitioner establishes that improper instructions resulted in a “fundamental defect
which inherently results in a complete miscarriage of justice [or] an omission
inconsistent with the rudimentary demands of fair procedure.” Brouillette, 636 F.2d
at 218 (citing DeBerry v. Wolff, 513 F.2d 1336, 1338-39 (8th Cir. 1975) (quoting
Hill v. United States, 368 U.S. 424,428 (1962)); accord Williams, 736 F.2d at 1267.
“The burden of demonstrating that errors in jury instructions were sufficiently
prejudicial to ‘support a collateral attack on the constitutional validity of a state
court’s judgment is even greater than the showing required to establish plain error
on direct appeal.’” Williams, 736 F.2d at 1267 (quoting Henderson v. Kibbe, 431
U.S. 145, 154 (1977)). A petitioner must show that the alleged error so infected the
entire trial that he was deprived of his right to due process. Cupp v. Naughton, 414
U.S. 141, 147 (1973); Williams, 736 F.2d at 1267.
Finally, a state court’s evidentiary rulings can form the basis for federal
habeas relief under the Due Process Clause only when they were so conspicuously
prejudicial or of such magnitude as to fatally infect the trial and deprive the
defendant of due process. Parker v. Bowersox, 94 F.3d 458, 460 (8th Cir. 1996)
(citing Troupe v. Groose, 72 F.3d 75, 76 (8th Cir. 1995); Bennett v. Lockhart, 39
F.3d 848, 856 (8th Cir. 1994)).

55

Case: 4:19-cv-03022-RGK-PRSE

Document #: 33-1

Date Filed: 07/06/2020

Page 56 of 63

1. Subpart (1)
Henderson asserts that he was denied his constitutional right to a fair trial
because the State committed prosecutorial misconduct by using the ‘J-town’ text
messages for the truth of the matter asserted, after claiming they were being
submitted as a statement of a co-conspirator or for other non-hearsay purposes.
(Filing No. 1 at CM/ECF pp. 26-27.)
Although Henderson raised this claim in his amended postconviction motion
(filing no. 14-17 at CM/ECF pp. 17-18). he was required to raise the claim on direct
appeal but did not do so.10 Thus, Claim Three, Subpart (1), is procedurally defaulted.
Alternatively, the court finds that Claim Three, Subpart (1), fails on the merits.
As discussed in Claim One, Subpart (4), the Nebraska Supreme Court concluded on
direct appeal that the text messages “were not admitted for the truth of the statements
contained therein but instead for the purpose of showing their effect on Henderson.”
(Filing No. 14-1 at CM/ECF p. 17; see also Claim One, Subpart (4), supra.) Because
the text messages were in fact admitted and used for non-hearsay purposes, it is
inconsequential whether the State argued that the text messages were also admissible
under alternative grounds. Furthermore, on postconviction appeal, the Nebraska
Supreme Court “perceive[d] little danger that the jury improperly deliberated by
considering the text messages for the truth of the matter asserted.” (Filing No. 14-2
at CM/ECF p. 14.) The court explained:
The facts asserted in the messages were that an individual had stabbed
“Jb” and that the individual was in the same area as the author of the
text messages. Whether those facts were true was immaterial.
Regardless of whether “Jb” had actually been stabbed, whether the
10 The state district court concluded that the claim was procedurally barred
because it could have been raised on direct appeal. (Filing No. 14-17 at CM/ECF p.
75.) Unsurprisingly, Henderson did not raise this claim in his postconviction appeal
before the Nebraska Supreme Court.
56

Case: 4:19-cv-03022-RGK-PRSE

Document #: 33-1

Date Filed: 07/06/2020

Page 57 of 63

suspected individual had done it, or whether that person was in the area
described, the text messages would have suggested that Henderson
went to the area of the shootings with the intent of retaliating against
the individual who he believed stabbed his acquaintance. And this was
the nonhearsay purpose for which they were admitted.
(Id.) Henderson had not established that the Nebraska Supreme Court’s decision on
this issue was based on an unreasonable determination of the facts in light of the
evidence, or that it was contrary to, or involved an unreasonable application of,
clearly established federal law as determined by the United States Supreme Court.
Furthermore, when the court weighs the effect of the State’s alleged
misconduct, the court finds that there is not a reasonable probability that it affected
the outcome of the trial—i.e., that absent the alleged impropriety, the verdict
probably would have been different. See Kellogg, 176 F.3d at 451. As the Nebraska
Supreme Court observed on postconviction appeal, “Henderson’s presence at the
scene, his possession of the weapons used in the shooting, the blood matching the
DNA profile of one of the victims on his clothing, and the evidence of his pre­
meditative intent to retaliate against someone he believed to be present at the scene
are highly suggestive of his guilt.” (Filing No. 14-2 at CM/ECF p. 8.) Thus, the court
finds that any alleged prosecutorial misconduct in using the ‘J-town’ text messages
for the truth of the matter asserted did not so infect the trial with unfairness as to
make the resulting conviction a denial of due process. See Darden, All U.S. at 171.
Accordingly, Claim Three, Subpart (1), is denied.
2. Subpart (2)
Next, Henderson alleges that he was denied his constitutional right to a fair
trial because the trial court refused to give a limiting instruction regarding the cell
phone text messages. (Filing No. 1 at CM/ECF p. 29.)
The Nebraska Supreme Court declined to consider this argument on direct
appeal “because Henderson did not assign error to the court’s rejection of the
instruction.” (Filing No. 14-1 at CM/ECF p. 18 (citing State v. Duncan, 115 N.W.2d
57

Case: 4:19-cv-03022-RGK-PRSE

Document #: 33-1

Date Filed: 07/06/2020

Page 58 of 63

922 (Neb. 2009) (the court does not consider errors which are argued but not
assigned).) The Nebraska Supreme Court’s denial of this claim was based on an
independent and adequate state procedural rule. See Duncan, 775 N.W.2d 922.
Therefore, Claim Three, Subpart (2), is now procedurally defaulted.
Alternatively, the court finds that Claim Three, Subpart (2), is without merit.
As previously discussed, the Nebraska Supreme Court determined—in different
contexts—that the text messages were not hearsay (filing no. 14-f at CM/ECF pp.
17-18), and that there was “little danger that the jury improperly deliberated by
considering the text messages for the truth of the matter asserted,” and thus, “[n]o
limiting instruction was necessary to prevent the jury from considering the truth of
the statements in the text messages” (filing no. 14-2 at CM/ECF p. 14). Accordingly,
Henderson cannot demonstrate that the trial court’s failure to give Henderson’s
proposed limiting instruction so infected the entire trial that he was deprived of his
right to due process. See Cupp, 414 U.S. at 147; Williams, 736 F.2d at 1267. Thus,
Henderson is not entitled to habeas relief on Claim Three, Subpart (2).
3. Subpart (3)
Henderson also argues that he was denied his constitutional right to a fair trial
because the trial court denied his motion for a mistrial after Detective Nick Herfordt
identified a photo found on the cellular phone in Henderson’s possession at the time
of his arrest as Jimmy Levering “an infamous gang member.” (Filing No. 1 at
CM/ECF pp. 34-36.)
On direct appeal, the Nebraska Supreme Court considered and rejected this
claim as follows:
Henderson next claims that the district court erred when it overruled his
motion for a mistrial based on Herfordt’s comment that Levering was
“an infamous gang member.” We conclude that the district court did
not abuse its discretion when it overruled the motion for a mistrial.
58

Case: 4:19-cv-03022-RGK-PRSE

Document #: 33-1

Date Filed: 07/06/2020

Page 59 of 63

A mistrial is properly granted in a criminal case where an event occurs
during the course of a trial which is of such a nature that its damaging
effect cannot be removed by proper admonition or instruction to the
jury and thus prevents a fair trial. State v. Green, 287 Neb. 212, 842
N.W.2d 74 (2014). A defendant faces a higher threshold than merely
showing a possibility of prejudice when attempting to prove error
predicated on the failure to grant a mistrial. State v. Dixon, 286 Neb.
334, 837 N.W.2d 496 (2013). Instead, the defendant must prove the
alleged error actually prejudiced him or her, rather than creating only
the possibility of prejudice. Id.
When the State questioned Herfordt regarding what he found in his
search of the cell phone, Herfordt testified that the background picture
that came up on the screen when the cell phone was turned on “was that
of someone known to be Jimmy Levering.” Henderson objected based
on. foundation, and the court sustained the objection. The State then
attempted to provide foundation by asking Herfordt how he knew the
identity of the person in the picture. Herfordt replied, “I worked
Northeast Omaha when I was in uniform, and Jimmy Levering, I guess,
was kind of an infamous gang member. . . .” Henderson immediately
moved for a mistrial based on Herfordt’s reference to gang affiliations,
noting that the State had agreed in connection with Henderson’s pretrial
motion in limine that it would not introduce evidence regarding gang
affiliations. The court overruled the motion for a mistrial. In
challenging this ruling on appeal, Henderson reasserts contentions he
made at trial and also offers some additional arguments.
Henderson contends that the reference to Levering as “an infamous
gang member” was a violation of the order on the motion in limine
precluding evidence of gang affiliation, that the motion for a mistrial
should have been granted, and that the damaging effect could not be
removed by admonition to the jury. With regard to Henderson’s
argument that the damaging effect of the reference could not be
removed by admonition to the jury, the record shows that the court
overruled Henderson’s motion for a mistrial and the State resumed
questioning Herfordt. Henderson did not ask the court for an
admonition, and furthermore, the court asked Henderson whether he
was moving to strike Herfordt’s last answer, which contained the gang
reference to which Henderson replied, “Not at this time, Judge, no.” We
59

Case: 4:19-cv-03022-RGK-PRSE

Document #: 33-1

Date Filed: 07/06/2020

Page 60 of 63

1 .*

believe that any damage caused by the lack of an admonition was the
result of Henderson’s failure to request such admonition.
It appears from the record that the State was not expecting Herfordt to
make the gang reference in his answer and that the questioning by the
State was not directed at eliciting such response. The comment does not
appear to be the result of intentional misconduct by the prosecution.
Upon resuming questioning of Herfordt, the State cautioned Herfordt
to avoid testifying about his knowledge of any affiliations the person in
the picture may have had. Herfordt’s gang reference was an isolated
comment, the State did not present other evidence of gang affiliations,
and the State did not offer evidence that Henderson had a gang
affiliation.
We conclude that the court did not abuse its discretion when it
overruled the motion for a mistrial, and we reject this assignment of
error.
(Filing No. 14-1 at CM/ECFpp. 19-20.)
The court finds that Herfordt’s statement that Levering was “kind of an
infamous gang member” was not of such magnitude as to support a due process
claim. As the Nebraska Supreme Court noted, the gang reference was an isolated
comment concerning Herfordt’s knowledge about Levering, not Henderson, from
seven years earlier; the State cautioned Herfordt to avoid testifying about his
knowledge of any gang affiliations Levering may have had; and there was no
evidence that the shooting leading to Henderson’s convictions was gang related.
(Filing No. 14-20 at CM/ECF pp. 31-32, 81-82.) Moreover, in light of the “highly
suggestive” evidence of his guilt, including Henderson’s presence at the scene, his
possession of the weapons used in the shooting, the blood matching the DNA profile
of one of the victims on his clothing, and the evidence of his pre-meditative intent
to retaliate against someone he believed to be present at the scene, (filing no. 14-2
at CM/ECF p. 8), the testimony that Levering was “kind of an infamous gang
member” was not sufficiently prejudicial to fatally infect the trial. Henderson has
not established that the Nebraska Supreme Court’s conclusion was contrary to, or
60

Case: 4:19-cv-03022-RGK-PRSE

Document#: 33-1

Date Filed: 07/06/2020

Page 61 of 63

involved an unreasonable application of, clearly established Federal law, as
determined by the Supreme Court of the United States, or that its decision was based
on an unreasonable determination of the facts in light of the evidence presented in
the State court proceeding. Thus, Claim Three, Subpart (3), is denied.
4. Subparts (4), (5), and (6)
In three related claims, Henderson alleges that he was denied his
constitutional right to a fair trial because the trial court erred in admitting the cell
phone text messages because such evidence was inadmissible hearsay (Subpart 4)
(filing no. 1 at CM/ECF at pp. 39-40). erred in admitting the cell phone text
messages as statements of a co-conspirator (Subpart 5) (id. at CM/ECF pp. 43-44),
and failed to instruct the jury on a co-conspirator rule and its application to hearsay
exceptions (Subpart 6) (id. at CM/ECF p. 44).
As repeatedly set forth above, the Nebraska Supreme Court concluded on
direct appeal that the text messages “were not admitted for the truth of the statements
contained therein but instead for the purpose of showing their effect on Henderson,”
and therefore, the trial court did not err when it admitted the evidence over
Henderson’s hearsay objection. (Filing No. 14-1 at CM/ECF pp. 17-18.) The court
explained:
The State used the messages to show that Henderson believed that an
individual who was responsible for an attack on an acquaintance of his
was at the location where the shootings would eventually occur and that
Henderson coordinated with other individuals to go to that place in
order to retaliate. The messages were not used to establish that the
individual was at that location or that the individual had attacked
Henderson’s acquaintance. Instead, the messages were offered to
support the State’s theory that Henderson went to the location for the
purpose of retaliating against the person who assaulted his
acquaintance, which was relevant to the premeditation element of first
degree murder. We therefore conclude that because the evidence was
not hearsay, the district court did not err when it admitted the evidence
over Henderson’s hearsay objection.
61

Case: 4:19-cv-03022-RGK-PRSE

Document #: 33-1

Date Filed: 07/06/2020

Page 62 of 63

(Id. at CM/ECFpp. 17-18.)
Henderson has not established that the Nebraska Supreme Court’s decision on
this issue was based on an unreasonable determination of the facts in light of the
evidence or that it was contrary to, or involved an unreasonable application of,
clearly established federal law as determined by the United States Supreme Court.
In light of the Nebraska Supreme Court’s determination that the text messages were
not admitted for hearsay purposes, whether they also were admissible as an
exception to the hearsay rule as statements of a co-conspirator was immaterial.
Indeed, because the Nebraska Supreme Court determined that the text messages
were not hearsay and were properly admitted to show their effect on Henderson, the
Nebraska Supreme Court did not consider whether the evidence would have met an
exception to the hearsay rule as statements of co-conspirators. (Id. at CM/ECF p.
18.) There was no basis to instruct the jury on a co-conspirator rule and its
application to hearsay exceptions. Accordingly, Henderson’s due process claims in
Claim Three, Subparts (4), (5), and (6), are without merit.
D. Fundamental Miscarriage of Justice
Finally, Henderson has failed to excuse his defaulted claims by showing that
there would be a fundamental miscarriage of justice if the court does not consider those
defaulted claims which the court has not addressed on the merits.
To establish a fundamental miscarriage ofjustice, a petitioner must “show, based
on new evidence, that a constitutional violation has probably resulted in the conviction
of one who is actually innocent.” Brownlow v. Groose, 66 F.3d 997, 999 (8th Cir. 1995)
(quoting Schlup, 513 U.S. at 327). To obtain review of an otherwise procedurally barred
claim based on actual innocence, a petitioner must satisfy a two-part test: (1) the
“allegations of constitutional error must be supported with new reliable evidence not
available at trial”; and (2) “it is more likely than not that no reasonable juror would have
convicted him in light of the new evidence.” Nash v. Russell, 807 F.3d 892, 899 (8th
Cir. 2015) (citing Schlup, 513 U.S. at 327-28); accord Amrine v. Bowersox, 238 F.3d
1023, 1029 (8th Cir. 2001). Actual innocence means factual innocence, not legal
62

Case: 4:19-cv-03022-RGK-PRSE

Document #: 33-1

Date Filed: 07/06/2020

Page 63 of 63

innocence or legal insufficiency. Narcisse v. Dahm, 9 F.3d 38, 40 (8th Cir. 1993). The
Eighth Circuit has determined that the actual innocence “standard is strict; [and] a party
generally cannot demonstrate actual innocence where there is sufficient evidence to
support a conviction.” Wadlington v. United States, 428 F.3d 779, 783 (8th Cir. 2005).
Henderson has presented no new, reliable evidence of actual innocence in this
case. He provides no “exculpatory scientific evidence, trustworthy eyewitness accounts,
or critical physical evidence,” Schlup, 513 U.S. at 324, to demonstrate his claim’s
credibility. The court has carefully examined the record; the evidence was sufficient to
convict Henderson beyond a reasonable doubt. Thus, the court finds Henderson has not
satisfied the requisite elements to excuse his procedurally defaulted claims through any
“gateway” claim of actual innocence.
V. CERTIFICATE OF APPEALABILITY
A petitioner cannot appeal an adverse ruling on his petition for writ of habeas
corpus under § 2254 unless he is granted a certificate of appealability. 28 U.S.C. §
2253(c)(1); 28 U.S.C. § 2253(c)(2); Fed. R. App. P. 22(b)(1). The standards for
certificates (1) where the district court reaches the merits or (2) where the district court
rules on procedural grounds are set forth in Slack v. McDaniel, 529 U.S. 473, 484-85
(2000). The court has applied the appropriate standard and determined that Henderson
is not entitled to a certificate of appealability.
IT IS THERFORE ORDERED that the Petition for Writ of Habeas Corpus (filing
no. 1) is denied and dismissed with prejudice. No certificate of appealability has been
or will be issued. Judgment will be issued by separate document.
Dated this 6th day of July, 2020.
BY THE COURT:
Richard G. Kop1
Senior United States District Judge
63

